<html>
<title> - THE SECRETARY'S SECOND-STAGE REVIEW: RE-THINKING THE DEPARTMENT OF HOMELAND SECURITY'S PART I AND II</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                  THE SECRETARY'S SECOND-STAGE REVIEW:
  RE-THINKING THE DEPARTMENT OF HOMELAND SECURITY'S ORGANIZATION AND 
                            POLICY DIRECTION
                             PART I AND II

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    JULY 14, 2005 and JULY 25, 2005

                               __________

                           Serial No. 109-32

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                    U.S. GOVERNMENT PRINTING OFFICE

27-687 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001








                               __________


                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
Peter T. King, New York              Jane Harman, California
John Linder, Georgia                 Peter A. DeFazio, Oregon
Mark E. Souder, Indiana              Nita M. Lowey, New York
Tom Davis, Virginia                  Eleanor Holmes Norton, District of 
Daniel E. Lungren, California        Columbia
Jim Gibbons, Nevada                  Zoe Lofgren, California
Rob Simmons, Connecticut             Sheila Jackson-Lee, Texas
Mike Rogers, Alabama                 Bill Pascrell, Jr., New Jersey
Stevan Pearce, New Mexico            Donna M. Christensen , U.S. Virgin 
Katherine Harris, Florida            Islands
Bobby Jindal, Louisiana              Bob Etheridge, North Carolina
Dave G. Reichert, Washington         James R. Langevin, Rhode Island
Michael McCaul, Texas                Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania

                                  (II)

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3
The Honorable Donna M. Christensen, a Delegate From the U.S. 
  Virgin Islands.................................................    45
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    59
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    28
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    57
The Honorable Jane Harman, a Representative in Congress From the 
  State of California............................................    21
The Honorable Katherine Harris, a Representative in Congress From 
  the State of Florida...........................................    43
The Honorable Bobby Jindal, a Representative in Congress From the 
  State of Louisiana.............................................    55
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York..........................................    20
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    48
The Honorable Jackson-Lee, a Representative in Congress From the 
  State of Texas
  Oral Statement.................................................    39
  Prepared Statement, July 25, 2005..............................    41
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    23
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California............................................    66
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    32
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    50
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    24
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    61
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    35
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    37
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    47
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    27
The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut...........................................    66
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    31

                                Witness
                             July 14, 2005

The Honorable Michael Chertoff, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                             For the record

The Honorable Michael Chertoff's Responses to Questions:
  Questions From Hon. Bob Etheridge..............................    89
  Questions From Hon. Bobby Jindal...............................    82
  Questions From Hon. Sheila Jackson-Lee.........................    86
  Questions From Hon. James R. Langevin..........................    93
  Questions From Hon. Zoe Lofgren................................    85
  Questions From Hon. Kendrick B. Meek...........................   107
  Questions From Hon. Mike Rogers................................    71
  Questions From Hon. Rob Simmons................................    70





























 
                      THE SECRETARY'S SECOND-STAGE


 
                   REVIEW: RE-THINKING THE DEPARTMENT


 
        OF HOMELAND SECURITY'S ORGANIZATION AND POLICY DIRECTION

                              ----------                              


                        Thursday, July 14, 2005

                          House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10 a.m., in Room 
2128, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Weldon, Shays, King, Linder, 
Souder, Lungren, Gibbons, Rogers, Pearce, Harris, Jindal, 
Reichert, McCaul, Dent, Thompson, Markey, Dicks, Harman, 
DeFazio, Lowey, Norton, Lofgren, Jackson-Lee, Pascrell, 
Christensen, Etheridge, Langevin, and Meek.
    Chairman Cox. The Committee on Homeland Security will come 
to order.
    The Committee is meeting today to hear testimony on the 
results of the internal Second-Stage Review of the Department 
of Homeland Security--its structure, policies, and programs--
initiated by Secretary Michael Chertoff during his first 90 
days at the Department.
    The Secretary having just arrived and taken his seat, I 
want to welcome you.
    The Honorable Michael Chertoff, Secretary of the Department 
of Homeland Security, will be the Committee's sole witness this 
morning.
    One week ago today, terrorists committed the barbaric 
bombings in the London Underground. That, and all of the 
terrorist acts that have stretched out from September 11 to 
today, provide the backdrop for this hearing.
    The changes that the Secretary is proposing in the 
organization and programs of the Department of Homeland 
Security all have as their focus achieving more effectively the 
overarching missions of the Department of Homeland Security: 
preventing terrorism, protecting against terrorism, and 
responding to acts of terrorism when they occur.
    There have been many different modalities of terrorist 
attack that we have witnessed. Sometimes schools have been 
attacked, sometimes nightclubs, restaurants, embassies, banks, 
subways, railroads in Madrid, and office buildings. The only 
constant has been the terrorists themselves. Preventing 
terrorism, therefore, requires that we have a constant focus on 
the terrorists themselves. And this, as this Committee has 
emphasized so often, requires the preeminence of an 
intelligence function in the Department of Homeland Security.
    I want to congratulate you, Mr. Secretary, for initiating 
the Second-Stage Review of the structure, policies, and 
programs of the Department, and I want to applaud your 
leadership in bringing prevention and intelligence to the fore. 
These are essential elements in what you are going to be 
describing to this committee today.
    I also want to applaud your leadership in bringing a risk-
based rigor to the Department of Homeland Security and to its 
management and operations. That has long been an objective of 
this Committee, and it is critical to driving integration of 
the Department's 22 legacy agencies. Risk-based management is 
also the key to ensuring that our efforts to enhance our 
national security do not, in the aggregate, result in trading 
away features of our constitutionally founded way of life.
    Mr. Secretary, you have recently stated that we don't drive 
the mission and the outcome by the structure. We drive the 
structure and operation by the mission and the outcome. That is 
precisely correct. And your Second-Stage Review generated 
constructive proposals that will help eliminate the 
bureaucratic stovepipes in the Department and sharpen the 
Department's focus on its core counterterrorism mission.
    Your focus on the most consequential kinds of terrorism 
that America might someday face and enhancing information 
sharing--both within the Department, with State and local 
governments, and with other homeland security stakeholders--to 
prevent acts of terror is absolutely right. And your proposed 
management and organizational reforms will move the Department 
significantly in the right direction.
    I am pleased that many of your specific reform proposals 
are consistent with initiatives that this Committee has, on a 
bipartisan basis, advocated over more than 2 years. For 
example, this Committee has urgently stressed the importance of 
creating an Assistant Secretary for Cybersecurity, as you 
propose. The Committee recognized the need for an overarching, 
coordinated intelligence capability for the Department. We 
urged a view of intelligence within the Department of Homeland 
Security that was much more than an adjunct to infrastructure 
protection. Your proposal properly separates intelligence from 
infrastructure protection and creates a Chief Intelligence 
Officer reporting directly to the Secretary.
    The Committee's oversight and legislative efforts have 
focused on the need for the Department to improve operational 
coordination among its many legacy agencies performing similar 
or related functions. This will not only reduce waste and 
duplication, but will also avoid dangerous gaps that terrorists 
can and will exploit. You have taken this issue head on as 
well, of course. Making the Department's choices about where to 
put homeland security technology and manpower, what to protect, 
and how to prepare for terrorist acts--making that all based on 
risk has been at the heart of what you have been saying and 
doing since you have become the Secretary of Homeland Security. 
It has always been at the very core of this Committee's 
persistent efforts.
    I applaud your focus on preparedness and on the specific 
preparedness priorities of surface transportation security, 
aviation security, port security, and border security. It is 
also important that, beyond preparedness, prevention remains 
the Department's number one mission priority, and I am 
absolutely confident that under your leadership it will.
    I would urge consideration of one more innovation, 
consistent with each of the structural reforms that you have 
outlined. The Department's budget request should be organized 
by mission focus from prevention through preparedness and 
response. That way we will be better able to determine whether 
resource allocation reflects the overriding terrorism 
prevention priority that must drive the Department's 
programmatic decisions.
    I congratulate you, Mr. Secretary, on a job well begun and 
on completing this ambitious top-to-bottom, mission-based 
review of the Department's structure, its programs and its 
activities. We wish you nothing but continued success. Now it 
is time to drive these, until now, paperbound reforms into 
operating reality in the weeks and months ahead. And we stand 
ready in this Committee to help you in any way that we can.
    Chairman Cox. I now recognize the Ranking Minority Member 
of the Committee, the gentleman from Mississippi, Mr. Thompson 
for his opening statements.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. I believe the first and last 
time that you appeared before this Committee was April 13. I 
hope we can make it a little more than what we had. Seeing you 
here today gives me hope that you will appear before us often.
    I want to thank you on behalf of the Democratic members for 
coming up to brief us on Tuesday. One request that I have, 
though, next time you release a significant initiative, I hope 
you will ask Members for input more than 24 hours before it is 
released. We can't really offer significant input to a document 
if it is already final.
    I have reviewed what you have released on your Second-Stage 
Review, including a draft legislation and 872 letter. Your view 
and proposed reorganization confirms what many of us on this 
Committee have known for a while: the Department is broken. 
Some of us have been waiting quite a long time for the 
repairmen to show up to fix the agency.
    The proposal you made yesterday does make some needed 
repairs, but it does not address the Department's most serious 
defects. If the Department were a house, what you have done is 
the equivalent of patching the walls, putting the new walls and 
siding in, and painted the building. Unfortunately, the joints 
of the house were cracked and left untouched. The 
Administration must do better if we are to prevent terrorist 
attacks on American soil.
    This morning the Democratic members of this Committee are 
releasing a report on your proposed reorganization. I have a 
copy here, and I will include it in the record for this 
hearing, and we will share it with the Members after the 
hearing.
    We found that some of the changes you proposed are 
important. We support your efforts on these items and will do 
what we can to ensure that they become reality. Some of these 
excellent changes have been called on by some of our Members. 
For the last 2 years, Zoe Lofgren on this Committee has spear-
headed the effort to create an Assistant Secretary of 
Cybersecurity, which your proposal includes. I congratulate my 
colleague from the Silicon Valley for the dedication to 
securing our Nation's critical networks and systems.
    The creation of a Chief Intelligence Officer is also a 
promising development.
    Earlier this week we held a hearing on bioterrorism. As we 
mentioned to you on Tuesday, it is appalling that DHS had 
completed only four out of six material threat assessments 
necessary to develop biological countermeasures. I hope the 
creation of this office will correct this unnecessarily slow 
process.
    There are other changes that I and other Democrats support, 
including adjustments to the US-VISIT program and the 
shortening of the Reagan 30-minute rule. That said, your plan 
is vague in a number of other areas, Mr. Secretary, making it 
difficult to determine whether we can support other items.
    For example, you have eliminated the Special Assistant to 
the Secretary for the Private Sector, creating in its place, an 
Assistant Secretary for Policy under a new policy directorate. 
The existing special assistant position was created by Congress 
to ensure that the private sector is a meaningful partner in 
our efforts to secure our homeland. If the Secretary is 
proposing a demotion for the official in charge of private 
sector outreach, that would be a serious step backward.
    There are also changes that should have been made that were 
not. These omissions concern me and make me wonder if in a few 
years we will be sitting here doing this again, waiting for 
another overdue plan. The Third Stage Review is probably what 
we will be calling it.
    Specifically, I am concerned about your plan's failure to 
reorganize the Transportation Security Administration. The 
London bombing last week, coupled with the Madrid bombing last 
year, should be a wake-up call to us all that our trains and 
transit systems are an attractive target for terrorists. I have 
asked myself the question, will the Department's proposed 
reorganization prevent what happened in London from happening 
here? Unfortunately, I concluded no.
    While TSA has focused on aviation, some would say with 
mixed results, rail security has became the forgotten 
stepchild. Indeed, the Department has spent less than 7 percent 
of the money it received this year to inspect and patrol rail 
lines. This is unacceptable. Rail security must be a priority 
even if TSA has to be reorganized to make it one.
    You have left Immigration and Customs Enforcement and 
Customs and Border Patrol as separate entities, despite the 
call from many, including many on this panel, to merge the two 
agencies for efficiency's sake. There are glaring omissions in 
this plan that I hope we will be able to touch upon. Again, I 
hope you review the Democratic report and that we will have 
continued dialogue on how to incorporate our ideas into your 
plan.
    It is essential that the Department be reorganized 
correctly today so that the Federal Government can assure the 
public that it is doing everything that it can to prevent,7 
detect and respond to terrorism here at home. Thank you.
    Chairman Cox. The Chair now welcomes and recognizes for his 
opening statement the Honorable Michael Chertoff, Secretary of 
the Department of Homeland Security. Welcome, Mr. Secretary.

STATEMENT OF THE HONORABLE MICHAEL CHERTOFF, SECRETARY, UNITED 
             STATES DEPARTMENT OF HOMELAND SECURITY

    Secretary Chertoff. Thank you, Mr. Chairman. Thank you, Mr. 
Ranking Member for your generous comments. I have a longer 
statement which I would request be made part of the full record 
of the hearing.
    I do appreciate the fact that I had a chance to brief 
significant numbers of the Members here on both sides of the 
aisle on Tuesday about what we were proposing to do, and I do 
want to say that in the course of considering what approach we 
ought to take in our Second Stage Review, there were a series 
of sessions in which the people who were conducting the review 
did talk to stakeholders on Capitol Hill, and stakeholders 
outside Capitol Hill, including in State and local government 
and in the private sector to see that we got the benefit of 
their insights and their observations.
    I appreciate the cooperative spirit that you show with 
respect to implementing these reforms. We are eager to move 
forward with this, which is only really the first step in 
accomplishing some of the things we need to accomplish to 
continue to make our country stronger.
    In particular, I would like to underscore the importance of 
the endorsement of a risk-focused and risk-based approach to 
all of what we do, including funding. I think we owe the 
American people to put essential priorities on the table that 
will address those issues that are of greatest concern, 
particularly with respect to potential consequences, and, Mr. 
Chairman, in terms of your budgeting suggestion, I will 
certainly take that back, and, Congressman Thompson, I will 
certainly look forward to reading your review of our proposal a 
little bit later today.
    I am going to be very brief and leave, obviously, an 
opportunity for questions. Let me say that what we announced 
yesterday was, of course, only a very partial element of what 
the review showed. It wasn't a complete agenda because the 
limits of time prevent me from going through everything. I 
think, generally speaking, though, we have identified some very 
critical priorities: preparedness; transportation; both 
strengthening and making more efficient our various screening 
processes for passengers and cargo; making sure that we get 
control of our borders so that we can ensure not only our 
security, but make sure we are respecting the rule of law, 
which I think requires that we prevent the kind of flagrant 
violation of our borders that we sometimes see; fused and more 
nimble information sharing; better management, which I think is 
what we owe the public as stewards of the public trust and the 
public fisc; and then, of course, this organization piece, 
which is designed to give us the tools to complete the job of 
integration as we go forward.
    I think a general comment I would make before I close is 
balance means sometimes that the balance goes down as well as 
up. We want to make sure that as we get better and more precise 
in the kinds of protections we can build in place, we are also 
able to relax some of the restrictions and burdens that we have 
put in place at an earlier time.
    And by way of making an example of this kind of philosophy, 
I announced yesterday our intent to eliminate the 30-minute 
rule with respect to people who are departing Reagan and 
entering Reagan airport. That got a lot of applause. As someone 
who has, from time to time, had to take account of that rule in 
making my own preflight accommodations, I understood where that 
applause came from.
    I think it is meant to make a larger point, though. We are 
not simply looking to layer additional levels of security on 
the country. We are looking to always keep a balance, and where 
we can make things lighter and less burdensome, we are going to 
be eager to do that.
    At the same time we have the 10 print rule, we have talked 
about taking a needed step that will enhance security by giving 
us an increased capacity to screen people coming in from 
overseas, but that will do it in a way that will not result in 
an undue inconvenience or undue burden.
    I again want to thank you, Mr. Chairman, and the rest of 
the members of the Committee for giving me the opportunity 
today to speak to you about this review. I look forward to 
working with you as we go forward on implementing not only the 
organizational changes, but as well the various specific policy 
proposals that we are going to be rolling out in the next weeks 
and months as we go forward, working together to make this 
country even safer and more secure than it is. Thank you, Mr. 
Chairman.
    Chairman Cox. Thank you, very much, Mr. Secretary.
    [The statement of Secretary Chertoff follows:]

              Prepared Statement of Hon. Michael Chertoff

                        Thursday, July 14, 2005

    Mr. Chairman, Ranking Member Thompson, and Members of the 
Committee: Thank you for the opportunity to address you today, and for 
your ongoing support of the Department of Homeland Security's efforts 
to keep America secure and free.
    I am honored and pleased to appear before the House Homeland 
Security Committee today to discuss the outcomes and results of our 
Second Stage Review (2SR). Last time I appeared before the Committee in 
April, we were in the middle of the 2SR process, and I was only able to 
briefly touch on some of our overarching goals--such as risk 
management--that were guiding our work on this important initiative. 
Today, I am able to report more fully on the results of that process.
    As the Committee is well aware, I launched 2SR several months ago 
at the beginning of my tenure. 2SR is a systematic evaluation of the 
Department's operations, policies and structures to ensure that our 
form and function are most effectively aligned to maximize our ability 
to achieve the security outcomes associated with our overriding mission 
of protecting the homeland.
    All Americans owe a tremendous debt of gratitude to the patriots 
and pioneers who built this Department in record time. Because of their 
dedication, security at our ports, airports, critical infrastructure 
and borders has been significantly strengthened. Our nation has 
thwarted plots and captured terrorists. As a result, in the period 
since 9-11, the American people have begun to live under an umbrella of 
greater security, with greater peace of mind than we imagined on that 
terrible day.
    My job--and the job of the leadership team at the Department--is to 
provide the strategic direction, tools, and aggressive support needed 
by our colleagues to build upon that foundation and continue to advance 
the effectiveness, agility, and capacity of this Department every day.

2SR--Philosophy
    Our review was conducted with several core principles in mind.
    First, as I have said before, DHS must base its work on priorities 
driven by risk. Our goal is to maximize our security, but not security 
``at any price.'' Our security strategy must promote Americans? 
freedom, prosperity, mobility, and individual privacy.
    Second, our Department must drive improvement with a sense of 
urgency. Our enemy constantly changes and adapts, so we as a Department 
must be nimble and decisive.
    Third, DHS must be an effective steward of public resources. Our 
stewardship will demand many attributes-the willingness to set 
priorities; disciplined execution of those priorities; sound financial 
management, and a commitment to measure performance and share results. 
Perhaps most of all, DHS must foster innovation.
    Finally, our work must be guided by the understanding that 
effective security is built upon a network of systems that span all 
levels of government and the private sector. DHS does not own or 
control all these systems. But we must set a clear national strategy, 
and design an architecture in which separate roles and responsibilities 
for security are fully integrated among public and private 
stakeholders.
    We must draw on the strength of our considerable network of assets, 
functioning as seamlessly as possible with state and local leadership, 
law enforcement, emergency management personnel, firefighters, the 
private sector, our international partners and certainly the general 
public. Building effective partnerships must be core to every mission 
of DHS.

SR Process
    From across the Department and elsewhere in the federal government, 
we pulled subject matter experts and talented individuals away from 
their day jobs to focus on how well we tackle our tough fundamental 
challenges: prevention, protection, and all-hazards response and 
recovery.
    This Second Stage Review utilized 18 action teams--involving more 
than 250 DHS staff--to evaluate specific operational and policy issues. 
We asked each team to answer a couple of simple questions. First, freed 
from the constraints of existing policies and structures--writing on a 
clean slate--how would you solve a particular problem? And then, how 
would you take the best solutions and implement them aggressively?
    We actively sought opinions from hundreds of public and private 
partners at the federal, state, local, tribal and international levels. 
Finally, we examined the DHS organizational structure, to make sure 
that our organization is best aligned to support our mission.
    This work, along with the experience of the last two years in the 
Department's existence, will now play a critical role in setting our 
agenda moving forward.

Six Imperatives
    In the weeks and months to come, the Department will launch 
specific policy initiatives in a number of key areas. Here, then, are 
six of the key imperatives that will drive the near-term agenda for 
DHS. We must:
        1. Increase preparedness, with particular focus on catastrophic 
        events.
        2. Strengthen border security and interior enforcement and 
        reform immigration processes.
        3. Harden transportation security without sacrificing mobility.
        4. Enhance information sharing with our partners, particularly 
        with state, local and tribal governments and the private 
        sector.
        5. Improve DHS stewardship, particularly with stronger 
        financial, human resource, procurement and information 
        technology management.
        6. Re-align the DHS organization to maximize mission 
        performance.
    We will put more muscle on the bones of these six areas and others 
with additional actions and policy proposals in the weeks and months 
ahead. But, for now, let me give you a broad overview of our agenda for 
the future of the Department.

1. Preparedness
    First, preparedness. In the broadest sense, preparedness addresses 
the full range of our capabilities to prevent, protect against, and 
respond to acts of terror or other disasters. Preparedness is about 
securing America's critical infrastructure, which is not a government 
asset; roughly 85 percent is privately owned or operated.
    At the outset, we must acknowledge that although we have 
substantial resources to provide security, these resources are not 
unlimited. Therefore, we as a nation must make tough choices about how 
to invest finite human and financial capital to attain the optimal 
state of preparedness. To do this we will focus preparedness on 
objective measures of risk and performance.
    Our risk analysis is based on these three variables: (1) threat; 
(2) vulnerability; and (3) consequences. These variables are not 
equal--for example, some infrastructure is quite vulnerable, but the 
consequences of attack are relatively small; other infrastructure may 
be much less vulnerable, but the consequences of a successful attack 
are very high, even catastrophic. DHS will concentrate first and most 
relentlessly on addressing threats that pose catastrophic consequences. 
Some of the tools needed to prevent, respond and recover from such 
awful scenarios are already in place; but others need significant 
improvement.
    The first step in enhancing national preparedness is establishing a 
preparedness baseline that measures the effectiveness of our planning 
for preventing, protecting against, and responding to terrorist acts or 
disasters. A second stage review team has, therefore, constructed the 
model for an analytic matrix that will set that baseline. The matrix 
will allow us to analyze possible threats and will map the current 
state of prevention, protection and response planning with regard to 
each. This matrix will be a critical tool enabling us to identify and 
remedy current gaps in preparedness.
    Bringing greater planning discipline to each of these risk 
scenarios is another dimension of our preparedness mission. And simple 
common sense counsels that we begin by concentrating on events with the 
greatest potential consequences. That is why the Department's National 
Preparedness Goal--and additional, risk-based planning--will form our 
standard in allocating future DHS grants to our state and local 
partners so that we build the right capabilities in the right places at 
the right level. Federal money should be distributed using the risk-
based approach that we will apply to all preparedness activities. And 
DHS needs the discretion to award infrastructure protection grants in a 
more flexible manner, as provided by the Administration's proposed 
Targeted Infrastructure Protection Plan.
    Of course, federal funds are not the only resources available to 
strengthen the protection of our valued infrastructure. Three years 
ago, Congress passed the SAFETY Act to enable our private sector 
partners to develop innovative technology to protect the homeland 
without the fear of unduly high transaction costs imposed by the 
possibility of frivolous lawsuits. There is more opportunity to take 
advantage of this important law, and we will do so.
    Finally, of all the catastrophic threats we face, a nuclear attack 
on our soil would be uniquely threatening to our society. The 
President's budget asks Congress to establish and fund a Domestic 
Nuclear Detection Office (DNDO) to develop and deploy the next 
generation of systems that will allow us to dramatically improve our 
ability to detect and intercept a nuclear threat. We have begun to take 
the steps to make this office a reality. The DNDO will report directly 
to me under our new structure--and I ask that Congress support this 
essential and critical resource.

2. Borders and Immigration
    Our second imperative is the need to strengthen border security and 
interior enforcement, as well as improve our immigration system. We 
cannot have one approach without the other.
    As to the first, we must gain full control of our borders to 
prevent illegal immigration and security breaches. Flagrant violation 
of our borders undercuts respect for the rule of law and undermines our 
security. It also poses a particular burden on our border communities. 
We are developing a new approach to controlling the border that 
includes an integrated mix of additional staffing, new technology and 
enhanced infrastructure investment. But control of the border will also 
require reducing the demand for illegal border migration by channeling 
migrants seeking work into regulated legal channels. I look forward to 
working with Congress this year to improve border security 
significantly through the President's Temporary Worker Program (TWP).
    Immigration policy is about more than keeping illegal migrants out. 
Our heritage and our national character inspire us to create a more 
welcoming process for those who lawfully come to our shores to work, 
learn and visit. Secretary Rice and I will, in the near term, announce 
a detailed agenda of work and innovation that the Department of State 
and DHS have begun together to ease the path for those who wish to 
legitimately visit, study, and conduct business in this country, while 
at the same time ensuring that our national security interests are 
protected.
    Of course, most people come to our shores to seek a better life for 
themselves and their children. Ours is a nation of immigrants, but, for 
legal immigrants trying to become American citizens, the process can be 
confusing, frustrating, and seemingly endless. Part of the problem is 
that the current business model fosters a long delay between 
application and final adjudication of applicants for residence and 
citizenship, during which many applicants stay here as temporary 
residents. But this system puts some of the most important security 
screening at the end of a lengthy process rather than the beginning, 
and leads to an unnecessarily high rate of rejection late in the 
process.
    As a result, too often, this system leaves a negative first 
impression of our nation with our new fellow countrymen. Worse yet, it 
causes unnecessary security risks because people enjoy temporary 
residence while we are completing the screening process. Restructuring 
this process to enhance security and improve customer service will be 
an important part of our agenda.

3. Transportation Security
    Creating better systems to move people and goods more securely and 
efficiently was a core objective in founding DHS. It remains so today.
    (a) Enhancing Transit Safety. The tragic events in London last week 
served as a reminder of the terrorist threat against innocent civilians 
in our mass transit systems. Following last year's Madrid train 
bombings, DHS took important action not only by increasing funding for 
rail security, but also by conducting over 2,600 individual consequence 
assessments. Since 9/11, the Transportation Security Administration and 
the Department of Transportation's Federal Transit Administration have 
worked extensively with the transit industry and first responders to 
strengthen the overall security capabilities of transit systems, with a 
special emphasis on the largest systems. Together, we have developed a 
significant tool-kit of protective measures, which include the 
coordination and training needed to recover from possible attacks. 
Multiple funding streams within DHS will be available to support such 
projects, including roughly $8.6 billion enacted and requested since 
2003 for our State Homeland Security and Urban Area Security Initiative 
grant programs.
    We are also working to develop next-generation explosive detection 
equipment specifically for use in mass transit systems. We will 
continue to apply resources to this groundbreaking work. At the same 
time, we must also prepare for terror attacks of even greater 
consequence--attacking transit systems with biological, radiological or 
chemical agents. We plan to expand the deployment of the PROTECT 
chemical detection and emergency management system. This capability has 
been successfully prototyped in the Washington, D.C. Metropolitan Area 
transit system and will provide a significant and important chemical 
detection capability for other transit systems across the Nation.
    We also now have a network of bio-sensors, but we will accelerate 
the development and deployment of next generation technologies that 
more quickly detect biological, radiological and chemical attacks.Sec. 
    (b) Strengthening Aviation Security. After 9-11, TSA was created to 
deny terrorists the opportunity to use aircraft as weapons and to 
defend our vital national infrastructure. Extraordinary progress has 
been made, but more remains to do. In aviation, our security and 
efficiency can be strengthened by better use of technology, both 
existing and next generation technologies.
    Congress intended TSA to be almost entirely supported by user fees, 
but it is not. The Administration has proposed a modest increase in 
user fees to fund the infrastructure needed for this job. I believe 
travelers are willing to pay a few dollars more per trip to improve 
aviation security and enhance efficiency. I look forward to working 
with both Congress and the aviation industry to find a formula that 
will work. By collecting user fees for aviation, we can free up 
precious DHS resources for other important security priorities.
    (c) Passenger Identity Screening. Too often, security screening for 
passengers at airports is frustrating. We are still dependent upon a 
pare-9/11 technology system to conduct the most elementary form of 
terrorist screening--matching names against watch lists. Our job is to 
identify people at airports whom we already know and believe to pose a 
risk to aviation. Our existing watch list does identify threatening 
people, but it is not fully automated for aviation screening and it 
yields an unacceptably high number of false positives, which drains our 
security resources.
    Getting this right is urgent. The short-term solution lies in 
enhancing our ability to screen individuals more precisely against 
named terror suspects, by utilizing more precise identifying 
information such as date of birth. That kind of system--being developed 
through our Secure Flight program--will limit cases where low risk 
travelers are selected for additional screening. It will dramatically 
reduce the number of cases where travelers are delayed for questioning 
simply because they may have the same name as someone on the watch 
list. But even this approach may not be complete, because it remains 
focused on only identifying already known high risk travelers.
    Putting aside known risks, the more comprehensive and efficient 
passenger screening system that DHS must develop will give us the 
ability to automatically clear low-risk travelers. By clearing these 
low-risk travelers, TSA can reasonably focus on a smaller and more 
distinct pool of passengers that might pose a threat to aviation. The 
result: less frustration; faster service; better security. Better forms 
of screening will also promote privacy, because they will reduce the 
number of mistakes or unnecessary interventions that annoy travelers.
    TSA's Registered Traveler and Secure Flight programs are keys to 
increasing the precision, reliability, and speed of identity screening 
for domestic air travelers. Equally important are improved protocols to 
screen inbound international airline passengers and expanded deployment 
of US-VISIT for overseas visitors. All these screening programs should 
be integrated so that screening is consistent and interoperable.
    (d) (Supply Chain) Security Management. After 9-11, this country 
put in place vital measures intended to protect the global movement of 
marine cargo that touches our shores as it moves from origin to 
destination. U.S. Customs and Border Protection is screening all 
inbound containers and inspecting those that merit further scrutiny. 
Increasingly, screening and inspection are taking place at the port of 
departure overseas--before cargo arrives here.
    But we should not rest where we stand. I believe that we can 
gather, fuse and assess more complete data from the global supply chain 
to develop a more accurate profile of the history of cargo in a given 
container. Data about what cargo is moving from the initial point of 
shipping to the final destination will allow us to target risk better. 
With more informed targeting, we can more efficiently conduct 
inspections of cargo that is either high risk or unverified. This 
``Secure Freight'' initiative will allow us to expedite large portions 
of the inbound that sustains our nation's economy, and focus with more 
precision on the unknown.
    That brings us to inspections. We must enhance and speed 
inspections that we need to perform, so that we minimize freight delays 
and increase total inspection capacity. To this end, we must complete 
our deployment of radiation portal detectors at ports, while advancing 
research on more sophisticated non-intrusive detection protocols and 
equipment.

4. Information Sharing
    The ability to share information with our international, state, and 
local partners, the private sector, law enforcement and first 
responders is absolutely critical to our success. Otherwise, we are 
effectively tying the hands of those who are on the ground and charged 
with the responsibility of protecting their community, their neighbors, 
and their families.
    We recognize the need for better and more inclusive information 
sharing. Information sharing is a two-way street. Therefore, we will 
work with the White House Homeland Security Council and our federal 
colleagues not only to help forge common federal tools for information 
sharing, but also work with state and local officials--and private 
sector infrastructure owners--to fuse and share a richer intelligence 
base. In short, we will promote greater situational awareness.

5. DHS Stewardship
    DHS must be a responsible steward of the public trust. Congress is 
justifiably making significant investments in homeland security, and 
that entails significant procurements at DHS. We must ensure that we 
carry out these procurements responsibly.
    One of my very first acts as the new Secretary was to contact the 
Department's Inspector General and my Chief Procurement Officer and 
instruct them to evaluate DHS procurements and our contracting 
practices. I asked for suggestions regarding any needed changes--and 
I've received just that. We will rely on these recommendations to make 
procurement integrity and efficiency a management focus throughout the 
Department's work.
    We will also emphasize improving financial controls and financial 
systems, seeking operating efficiencies, strengthening human capital 
policies, and delivering core information technology systems. Last 
week's attack in London re-emphasized for me the need to act on another 
Second Stage Review recommendation: better integration and 
consolidation among the Department's multiple crisis management 
centers. We will do that.
    DHS employees also deserve an organization that provides top-notch 
professional career training, an organization that actually enables 
individuals to broaden these experiences by working in other components 
of the Department without impeding their career paths. DHS should 
reward the strongest performers and team players. Our review has given 
us some specific recommendations for building this type of 
organization, and we will look forward to sharing more details with 
employees in the weeks and months to come.

6. DHS Structural Re-Alignment
    I have concluded that some structural changes are needed at DHS to 
improve mission performance. Modest but essential course corrections 
regarding organization will yield big dividends. Most can be 
accomplished administratively--a few require legislation.
    These organizational changes include four important areas of focus 
which include: (1) formation of a new, department-wide policy office; 
(2) significant improvements in how DHS manages its intelligence and 
information sharing responsibilities; (3) formation of a new operations 
coordination office and other measures to increase operational 
accountability; and (4) an important consolidation effort that 
integrates the Department's preparedness mission.

    (a) Policy. We propose the creation of a central policy office led 
by an Under Secretary for Policy. This office also will bring together 
our international affairs staff, a significant and new strategic 
planning capability, DHS-wide policy development assets, a senior 
policy advisor focused on refugee asylum policies, and enhanced private 
sector liaison resources. Collectively, the Policy Directorate will 
strengthen the Department's ability to develop and plan vital policies. 
This office is not a new idea--it builds in part upon the foundational 
work of the Border and Transportation Security policy staff, which is 
to be folded into the new policy directorate. Creation of a DHS policy 
shop has been suggested by Members of Congress, Secretary Ridge, and 
numerous outside experts. Now is the time to make this a reality.

    (b) Intelligence. Systematic intelligence analysis lies at the 
heart of everything we do. Understanding the enemy's intent and 
capabilities affects how we operate at our borders; how we assess risk 
in protecting infrastructure; how we discern the kind of threats for 
which we must prepare to respond.
    More than 10 components or offices of the Department of Homeland 
Security are intelligence generators, and all of us in the Department 
are consumers and appliers of intelligence. We need to have a common 
picture--across the Department--of the intelligence that we generate 
and the intelligence we require. We need to fuse that information and 
combine it with information from other members of the intelligence 
community as well as information from our state, local, and 
international partners.
    DHS can also do a better job of sharing the intelligence we are 
gathering and the intelligence we are analyzing with our customers 
inside the Department, within the intelligence community, and with our 
frontline first responders at the state and local level.
    Therefore, we will designate the Assistant Secretary for 
Information Analysis as the Chief Intelligence Officer. The Chief 
Intelligence Officer will head a strengthened Information Analysis 
division that will report directly to me. This office will ensure that 
intelligence is coordinated, fused and analyzed within the Department 
so that we have a common operational picture. It will also provide a 
primary connection between DHS and others within the intelligence 
community--and a primary source of information for our state, local, 
and private sector partners.

    (c) Operations. Intelligence and policy mean little if not 
translated into action. Under our plan, all seven primary operational 
components will have a direct line to the Secretary, but--to improve 
our ability to coordinate and carry out operations--we will establish a 
new Director of Operations Coordination. The Director of Operations 
Coordination will work with component leadership and other federal 
partners to translate intelligence and policy into actions--and to 
ensure that those actions are joint, well-coordinated and executed in a 
timely fashion. The Operations Coordination director will manage DHS's 
hub for crisis management.
    This integrating office will not disrupt our operators in the 
field, nor will it interfere with component chains-of-command. We do 
not aim to fix what already works.

    (d) Preparedness. Finally, let me turn to the critical area of 
preparedness. The Department of Homeland Security has primarily been 
viewed as a terrorist-fighting entity. But, in fact, we are an ``all 
hazards'' Department. Our responsibilities certainly include not only 
fighting the forces of terrorism, but also fighting the forces of 
natural disasters.
    To ensure that our preparedness efforts have focused direction, we 
intend to consolidate the Department's existing preparedness efforts--
including grants, exercises, and most training--into a single 
directorate led by an Under Secretary for Preparedness. Going forward, 
FEMA will be a direct report to the Secretary--but it will now focus on 
its historic and vital mission of response and recovery, the importance 
of which was illustrated powerfully as Hurricane Dennis made landfall 
this week.
    The Preparedness directorate will continue to rely on FEMA's 
subject matter expertise and the expertise of our other components in 
promoting preparedness. It will also include our Infrastructure 
Protection division, as well as the U.S. Fire Administration, currently 
in FEMA, which will strengthen our linkages with the fire service.
    Further, as part of our consolidated preparedness team, a Chief 
Medical Officer will be appointed within the Preparedness directorate. 
This position will be filled by an outstanding physician who will be my 
principal advisor on medical preparedness and a high-level DHS 
representative to coordinate with our partners at the Department of 
Health and Human Services, the Department of Agriculture and state 
governments. The Chief Medical Officer and his team will have primary 
responsibility for working with HHS and other Departments in completing 
comprehensive plans for executing our responsibilities to prevent and 
mitigate biologically based attacks on human health and on our food 
supply.
    We also appreciate both the efficiencies and the vulnerabilities of 
the modern technology on which so much of our society depends. To 
centralize the coordination of the efforts to protect technological 
infrastructure, we will create the new position of Assistant Secretary 
for Cyber and Telecommunications Security within the Preparedness 
directorate.

Constantly Improving Our Efforts
    The six areas of focus just described are all areas that will be 
priorities for the Department moving forward in the near term. They 
offer at least an initial roadmap of large categories of our activity 
for the months ahead.
    We look forward to working with this Committee, other Members of 
Congress, our colleagues in the Administration, and our partners to 
ensure that this agenda for DHS can be implemented. And we will 
continue to roll out new thinking and specific solutions to the issues 
that directly affect our security and daily lives.
    Of course we have not been idle while waiting for this moment. To 
the contrary, we have taken immediate steps to promote security in a 
commonsense and balanced way. Since my confirmation, for example, we 
have resolved a long-simmering dispute by supporting the placement of 
hazardous material warning placards on rail cars. We have also 
announced a plan to open Ronald Reagan National Airport to general 
aviation. And, we affirmed a strong and achievable implementation plan 
for the Visa Waiver Program that requires biometric technology 
standards for passports issued by program participant nations.
    What is notable about these decisions is that they did not simply 
pile on security restrictions. Instead, we have modified or even 
relaxed security measures that were no longer necessary, where risk 
analysis warranted. After all, a balanced approach means that the 
balance moves down as well as up.
    Moving forward, we will evaluate our decision making, strengthening 
security where needed, and eliminating unnecessary burden when 
possible. Yesterday, I announced two decisions that illustrate this 
approach.
    In the former category, after extensive consultation with the 
Department of State and the Department of Justice, DHS has decided to 
strengthen our US-VISIT program. In the future, first-time visitors to 
the United States will be enrolled in the program by submitting ten 
fingerprints. Subsequent entries will continue to require a 2 print 
scan for verification. This will dramatically improve our ability to 
detect and thwart terrorists trying to enter the United States, with no 
significant increase in inconvenience.
    In the latter category, TSA will suspend the post-9/11 requirement 
that commercial airline passengers using Reagan National Airport in 
Washington must remain seated for 30 minutes after departure and before 
arrival. This 30-minute seating rule was a sensible measure when first 
applied. Now, almost four years later, significantly enhanced layers of 
security ranging from hardened cockpit doors to air marshals make it 
reasonable to eliminate this requirement.
    Our work in protecting the homeland will always seek reasonable 
balance. Over time, as intelligence warrants and as progress allows, 
DHS will be open to change. We will be straightforward. If something 
goes wrong, we will not only acknowledge it, we will be the first to 
fix the error. But, we also will stand up and let people know when 
we've done things the right way or see a better way ahead.

Conclusion
    This is an exciting time for our organization. Change brings 
opportunity--and after an historic first two years--our young 
Department continues to hold one of the most important roles in 
government--the safety and security of our nation.
    We set these priorities for ourselves and make these adjustments to 
the Department in order to serve our mission, to protect our families, 
our fellow citizens, our visitors, and our homeland.
    So, moving forward together, let us answer this call by building 
upon that which has been honorably founded these past two years at DHS. 
We will proceed with unyielding focus and quiet determination.
    Once again, I thank this Committee for their constant support and 
valuable input, and I look forward to working with you as we move to 
put these changes into effect.
    Thank you.

    Chairman Cox. Let me begin by saying that with respect to 
so many of the changes that you are outlining, it is evident 
that you have been listening to the members of this Committee 
and have heeded very much the urgings of this Committee. The 
creation of a Chief Intelligence Officer and the emphasis on 
intelligence as a key driver of prevention has been a priority 
of this Committee through 2 years of our work as a select 
committee and all this year as a permanent standing committee.
    The emphasis on risk, likewise, has been a constant refrain 
of this Committee. It is at the center of what you are 
proposing today. The creation of an Assistant Secretary for 
Cybersecurity and Telecommunications was formal legislation 
proposed by this Committee. That legislation is now 
unnecessary. The significant refinements that you have made to 
the threat warning system coordinate the views, I think, of 
this Committee very nicely. So I have no question that you have 
been listening carefully, and that the work we are doing here 
in this Congress has had a big impact and is reflected in what 
you are bringing to us today.
    I want to focus on one key piece of that, and that is the 
intelligence piece. We will now have a Chief Intelligence 
Officer reporting directly to you. That Chief Intelligence 
Officer is going to be responsible, among other things, for 
fusing the intelligence collection from elements of the 
Department of Homeland Security, at least that is my 
understanding. And I want to ask you that. Will that be one of 
the responsibilities of the new Chief Intelligence Officer? And 
how is he going to do that, by the way, since these operational 
elements of the Department have historically been separate?
    Secretary Chertoff. Well, first of all, thank you, Mr. 
Chairman. And I want to underscore the fact that we did, in 
building this set of proposals, pay a good deal of close 
attention to what this Committee and the Congress has already 
done in the reauthorization bill and the appropriations 
activity and hearings and testimony. I fully anticipated you 
would see a lot of the ideas generated by this committee in our 
work, and I am the last person to claim pride of authorship. We 
know a good idea when we hear it, and we are eager to implement 
it.
    The Chief Intelligence Officer will have the obligation to 
manage the collection and fusion of intelligence throughout the 
entire Department. We have over 10 offices now. Many of them 
focus on tactical intelligence. For example, Customs and Border 
Protection is obviously concerned about new trends in passport 
fraud and things of that sort, and that will continue to be the 
case. But we do generate an awful lot of strategic intelligence 
when we interact at the border.
    What we have already begun to do, and what I will expect 
the Chief Intelligence Officer to do, is to work with the 
components to put reports officers into parts of the 
components' operational elements so that we can spot 
information that has strategic intelligence value, make sure 
that it gets written up in a form that is compatible across the 
board so that we don't have different formats or different 
understandings of the kind of information that we need, and 
then make sure that it gets channeled up; and then once it gets 
to our analytical section, to make sure that we are fusing 
that.
    Now, that will obviously sometimes require working with the 
analysts in the components, and we already do that to a large 
extent, but we do it now manually instead of in an 
institutional manner. This is going to institutionalize a 
practice that we have been putting in place even in the last 
few months. So the collection piece will not be the only 
function of a Chief Intelligence Officer, but it will be an 
important function.
    Chairman Cox. And will the Chief Intelligence Officer carry 
the chief responsibility or some responsibility or no 
responsibility for moving the intelligence out from the Federal 
Government to State and local stakeholders?
    Secretary Chertoff. Again, that person will have the 
principal responsibility for managing that process. Now, in 
terms of the mechanics of it, in terms of the Intelligence 
Community, the Chief Intelligence Officer and the Coast Guard 
intelligence officers do sit as part of the Intelligence 
Community formula.
    Chairman Cox. I would like to make my question a bit more 
specific. Will the--what is now the Information Analysis Office 
of the Department of Homeland Security, which will now be a 
stand-alone intelligence operation in the Department, and which 
will be run by the Chief Intelligence Officer--will it contain 
the manpower that is necessary within DHS to conduct liaisons 
with State and local stakeholders and private sector 
stakeholders when it comes to the sharing of intelligence?
    Secretary Chertoff. Yes, it will. I want to emphasize that 
some of that, however, will take place in conjunction with our 
preparedness people, because a lot of--often the intelligence 
is not necessarily transient threat information, but it 
involves analytical pieces that drive with the way we, for 
example, protect our infrastructure or deal with grant issues. 
So they will have the manpower, and they will have the 
principal liaison, but they will also be working, particularly 
on the more strategic analyses, with some of our other 
components.
    Chairman Cox. My time has expired. The gentleman from 
Mississippi is recognized for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Mr. Secretary, again, I look forward to working with you on 
the reorganization and discussing the Democratic response to 
it.
    As you are aware, the 9/11 Act required submission of a 
national transportation security plan by April 1. When the 
Department missed that deadline, I sent a letter to you, and 
that was responded to by your deputy, Mr. Jackson, indicating 
that it would be 2 to 3 months we would have that 
transportation security plan.
    In light of what London is facing and what we are facing 
here in this country, what are your plans to produce that plan 
for the Department?
    Secretary Chertoff. Well, first of all, we should make it 
clear that a big part of this review was a process of stepping 
back and looking at our current planning on transportation.
    The President has nominated a very skilled and experienced 
individual in the area of transportation to be the next 
Administrator of TSA. We are very hopeful we can get him 
confirmed. Obviously, we would want to be able to have his 
input in this planning process, but we are doing a lot of work 
on that as we speak.
    Another issue we are going to look at very carefully is the 
lessons learned from London. There is an investigation going on 
now. I think we will have greater insight in the coming days 
into what we can take away that is of value. We will be prompt 
in giving Congress a plan, but we do want to make sure it is 
well thought out, and that means addressing all the components 
of transportation and not merely responding with respect to 
one.
    In particular, we are focused on TSA and where we need to 
make adjustments in the manner that TSA operates. It is 
important to make sure that TSA is focused on all of its 
transportation missions, and, although I think that has been 
the case up to now, the new Administrator, I know, is very 
interested in making sure that we are adequately addressing 
land and rail transportation, as well as, of course, aviation 
transportation.
    Mr. Thompson. And I appreciate your comments, but I think 
you can understand our anxiety in not having a plan at all, and 
waiting for another event to happen to take best learned 
practices from it is probably not the way to go. We could 
probably just put an addendum to an existing plan and go 
forward. But we do need a plan, Mr. Secretary, and I would 
encourage you to do that.
    With respect to the Special Assistant Secretary for the 
Private Sector that you know was congressionally mandated, you 
have now moved that position out of your proposed 
reorganization. How do you see the private sector having 
standing in your Department given the fact that you have now 
done away with that position?
    Secretary Chertoff. Well, actually, Congressman, we have 
actually elevated that position. The current structure, the 
Special Assistant really essentially has that person with a 
small office attached to the Office of the Secretary, but not 
really being integrated with the planning process. When we took 
a lot of the advice of Congress in terms of setting up a policy 
directorate, which I think this Committee endorsed, we said, 
how do we make sure that in our policymaking and in our 
planning the private sector is thoroughly integrated? And 
rather than having the Special Assistant continue to be an 
adjunct of the Secretary's office, it seemed we needed to give 
that person the stature and the authority within the entire 
range of our policy and planning to make sure the private 
sector is adequately and fully represented. So I do raise a 
step up actually in terms of the breadth of operating authority 
and the breadth of responsibility of the current incumbent.
    I would also point out that on an ongoing basis on our 
infrastructure protection components, we regularly work with 
the private sector. We will continue to do that, as we will in 
the whole area of preparedness, where many of the assets in 
question are in the hands of private parties.
    Mr. Thompson. So in other words, the Assistant Secretary of 
the Policy for the Private Sector, it is still there with the 
same function?
    Secretary Chertoff. Actually an enhanced function.
    Mr. Thompson. Enhanced function. Thank you.
    The other thing is this is a present chart of your 
Department. There are 13 vacancies of senior positions. I would 
hope that under the reorganization we can get some real, live, 
permanent bodies there to move forward with the Department. One 
of the complaints we hear all the time is it has been musical 
chairs there, and we never talk to the same person twice. And 
hopefully, with your reorganization in place, we can move 
toward some permanence in the senior leadership in the 
Department. 

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Secretary Chertoff. I share that desire strongly. I think 
we announced yesterday a couple of people that have been 
selected to fill some new positions. I think we may have a 
further announcement today, and, of course, we are working very 
hard with the Senate to move people through the process of 
confirmation as quickly as possible.
    Mr. Thompson. Thank you.
    Chairman Cox. The Gentleman's time has expired.
    The Gentleman from New York, Mr. King, is recognized for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    Let me welcome Secretary Chertoff. I thank you for the 
terrific job you have done so far. I especially want to commend 
you for focusing on risk-based funding. That is one of the most 
important things the Department can do. I want to thank you for 
that.
    I would like to follow up on the Chairman's question 
regarding the Chief Intelligence Officer. There are really two 
parts to it. One, if you could walk us through exactly how you 
will interact with Ambassador Negroponte and the DNI, how that 
will work.
    And also, as far as the question of sharing intelligence, 
one thing we have heard from local police and officials around 
the country is, not so much with Homeland Security, but 
certainly with the FBI, that there has been a lack of 
intelligence sharing. What can you do to assure us that your 
Department will do all kinds of work with local police, fire, 
and emergency responders? Thank you.
    Secretary Chertoff. Well, as you know, under the 
Intelligence Reform Act, and then under the President's 
announcement recently concerning his adoption of virtually all 
the recommendations of the Silverman-Robb Commission, the DNI 
has the responsibility to coordinate intelligence across the 
board. We work very closely with him. I speak to Ambassador 
Negroponte or see him at least once a week, unless we are 
traveling, or his deputy. We speak regularly on the telephone. 
We have members of our Information Analysis component bolted 
together with the NCTC--the National Counterterrorism Center--
which is the central focal point for accumulating the 
intelligence.
    And my vision of the Chief Intelligence Officer is that 
that person will have an enhanced ability to deliver to the 
whole Intelligence Community all of the information that we 
collect inside the Department. We do that a lot manually now. I 
am in regular discussion with Director Mueller and with 
Director Goss and with Ambassador Negroponte. But again, we 
want to institutionalize this. It shouldn't be about my 
personal discussions with people or someone's personal 
discussions. It should be more embedded.
    With respect to the issue of sharing, we have been working 
very hard on the issue of sharing--both with respect to threat 
information and with respect to more sustained strategic 
information--lessons learned, things of that sort. And we have 
been emphasizing, in particular, doing that.
    One set of conversations I have had with a number of the 
Governors and homeland security advisors is their desire to set 
up intelligence fusion centers where they have a single point 
of contact in terms of intelligence collection and also 
consuming intelligence.
    As I announced yesterday, we are talking to the States to 
set up a meeting, basically a summit meeting, where the 
homeland security advisors will come in, and we want to talk 
with them about networking all of our fusion centers. In fact, 
we are going to be using some of our money to encourage that to 
happen. I think that is an additional way to connect up. I 
think we have been doing a better job. I am very mindful about 
it. It is a two-way street. And I think this is going to be 
another step forward in that direction.
    Mr. King. Thank you, Mr. Secretary.
    Chairman Cox. The Gentleman's time has expired.
    The Gentlelady from California is recognized for 5 minutes, 
Ms. Harman.
    Ms. Harman. Thank you.
    Welcome, Secretary Chertoff. My thanks to you for bringing 
a systems approach, enormous dedication to your job, and for 
visiting recently the part of southern California that the 
Chairman and I represent in seeing our ports and our airport, 
and actually one of our elementary schools, which is a bit 
challenged in trying its best to prepare for a terrorist attack 
should it come.
    I am impressed with what you are doing. I think that the 
risk-focused and the risk-based approach are absolutely 
critical, and that changes need to be made. However, I think 
that your primary audience is not government junkies or 
graduate students, but an anxious public, and that is why I 
said to you a couple of days ago that I thought you need to 
talk about capability more than moving boxes around.
    I still see a couple of things that I would love for you to 
talk about very soon, and let me just list them and get some of 
your responses. There is a vote on, so I think we are all going 
to run out of here in a few minutes. But the three things 
missing from yesterday, at least as I heard it, were, one, 
steps that you will take to fix a threat warning system that I 
believe is broken. You did a good job with it last week, 
explaining a targeted and measured response to the London 
bombings, but I think the color-coded system does not work. So 
that was one thing missing.
    The second thing is some news, long overdue news, on when 
we will see one national integrated threat and vulnerability 
assessment, which was the basic idea in the first place. We 
don't want to rearrange the deck chairs, we want one deck. And 
that assessment, at least as it was described by your 
predecessor some months back, needed a lot of work.
    Finally, I didn't hear anything, and I think this is a 
critical piece of the preparedness piece, about interoperable 
communications. They did not exist in New York on 9/11, and 
they did not exist at the Pentagon either. And although Los 
Angeles County and other places have done some good things, 
putting together bridge technologies, I would argue, we still 
don't have a system, one national integrated system, in the 
event of multiple terrorist attacks. And God forbid this reload 
idea that you have described where not only do we get one 
attack in some place, but it is repetitive.
    So those are three areas we would like to hear more about, 
and I know I am representing this anxious public that I have 
mentioned. Thank you.
    Secretary Chertoff. Well, Representative Harman, first of 
all, I appreciate the opportunity that we have had over the 
last few months to talk at greater depth about those issues, 
and I look forward to continuing to do that.
    I think obviously there is a lot to work on here, and of 
course, a single speech and the capacity of my voice to talk 
endlessly is limited. So we can only do so much. But let me 
touch on these briefly.
    As I said, we are looking, as we speak, at the threat 
warning system, and part of that process is we are consulting 
with not only other departments of Government which have a 
stake in this, but with our State and local counterparts and 
with members of the private sector as well. So we are actually 
considering right now what we need to do this. It is a 
complicated issue, but it is being very vigorously attended to.
    With respect to the integrated national threat and 
vulnerability assessment, we have a comparatively new Assistant 
Secretary put in charge of the Infrastructure Protection 
component. One thing that we are trying to take advantage of in 
building this out to be more than merely a collection of 
infrastructure, a long list of golf courses and things of that 
sort, is to take advantage of some of the capacities that we 
have in our national laboratories to do very sophisticated 
computer modeling. I have already seen some of the product of 
this process.
    For example, in dealing with the issue of port grants, we 
have put together, I think, a much better analytic product in 
terms of our distribution of those grants that is risk-based 
than was the case a year ago. So I can't see this as a process 
that is going to be done in a couple of weeks, but I can say 
that it is a process that is well under way, and that the 
people that are executing it have a very firm understanding 
that this needs to be something that is disciplined and not 
merely an opportunity for everybody to chip in their individual 
pet projects.
    Third, I think interoperable communications again, there 
are some pieces of this we own, some that we don't. I know 
there is a pending proposal to get a dedicated piece of a band 
for purposes of communication. I think that is something that 
we do want to move forward on. And we also need to move forward 
technologically in terms of equipment that will bridge existing 
systems. We don't want to throw out what we have, but I think 
we need to look at the issue of setting down some standards for 
new equipment.
    And finally, there have been cultural issues and processes 
that have to be worked out.
    Ms. Harman. My time is expired, but that bill to dedicate a 
band for emergency communications has been offered by me and 
Congress Curt Weldon, and I am pleased to hear that you are 
supportive of it.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady's time has expired, and so 
too, has the time of almost all the Members here to vote on the 
floor. There is very little time left in the currently pending 
floor vote. It is the expiration of a 15-minute vote followed 
by two 5-minute votes. That should permit us to take a very 
brief recess and reconvene this hearing no later than 11:00. 
That would be the Chair's intention.
    [Recess.]
    Chairman Cox. The hearing is reconvened, and the Chair 
recognizes next the gentleman from Georgia, Mr. Linder, for 5 
minutes.
    Mr. Linder. Mr. Secretary, thank you for being here. Nice 
to see you again.
    What do you think the TSA is going to look like 5 years 
from now?
    Secretary Chertoff. I think and I hope that TSA will be an 
agency that uses a next generation of technology--one that 
allows us to more efficiently leverage our resources, both in 
terms of airport and also in terms of other forms of 
transportation--that includes screening devices at the airport 
that will allow us to focus more on the things we worry about 
and less on the things we worry about less.
    I hope and envision that some of the burdensome 
restrictions in terms of what you can carry on board will be 
lifted because of additional measures to protect people. I am 
hopeful that secondary screenings will be reduced because we 
will have a more interoperable and more sophisticated screening 
system that doesn't rely only on names, but allows us to do 
some work with additional identifying things, like date of 
birth, and even some analytical tools that would let us be more 
focused.
    With respect to rail and other forms of land 
transportation, I see it, again, involved with better 
technologically infused systems that will give us protection 
particularly against the catastrophic things that we are 
worried about, but also using modern technology in terms of 
video cameras and sensors and things of that sort.
    Mr. Linder. Why should a person go through the difficulty 
of background checks and the fingerprinting to be a Registered 
Traveler if all that means is they get to go through a quicker 
line, but they still take their shoes off, take their coat off, 
take their computer out of the case?
    Secretary Chertoff. Well, ultimately what these Registered 
Traveler programs should do is give you the benefit of 
checking, and essentially acceptance of reliability throughout 
a whole menu of things, whether it involves getting on an 
airplane or getting into a Federal building. I mean, my vision 
of where we should go is Members of Congress obviously are 
checked and vetted and get security clearances. At the end of 
the day, your card that contains that information ought to be 
able to get you into a Registered Traveler status getting into 
the country, getting onto airplanes, things of that sort. I 
don't mean to restrict it to Members of Congress, but what I am 
trying to suggest is the degree of interoperability and 
coordination. That means once you get checked once, that 
becomes a way to easier entry into a whole lot of things.
    Mr. Linder. We had a hearing yesterday on biologic threats, 
and I worry that the money we spent, $20 billion so far, has 
just been wasted because it is so easy to genetically alter the 
threat. We have 10,000 people dealing with recombinant DNA. We 
have synthesized smallpox. We can make some smallpox more 
virulent and resistant than it is currently. We have announced 
to everyone how much we have in the stockpile to respond to an 
anthrax attack, and so, modest engineered anthrax won't be able 
to be treated by it.
    We spend very little money--I think it is less than 2 
percent of your budget--on intelligence. And it strikes me that 
you have said before this Committee before that the most 
important things to you to worry about are catastrophic things 
like nuclear and biological threats. The only way to prevent 
those, it strikes me, is by having a robust intelligence 
section that can anticipate where something might come from and 
prevent it. Prevention ought to be the number one thing in your 
Department. Do you disagree with that?
    Secretary Chertoff. I fully agree that prevention is a 
critical element in preventing an attack. I have to say though, 
I lived, as many people here did, through the anthrax attacks 
in Washington of 2001. I think our general philosophy of taking 
a layered approach is not to put all our eggs in one basket, 
but to have vigorous intelligence and vigorous prevention, as 
well as to be prepared to have a process in place and a 
response in place if there is an attack--and it could even come 
from a single individual, it doesn't need to come through a 
terrorist group. So I think we need to do the full menu of 
approaches.
    And one element of intelligence, by the way, is a very 
scientifically founded intelligence that looks to see what we 
know about the way people are now working to manufacture 
potentially biological threats. There are different signatures, 
and I think knowing that helps us do some of our response 
planning.
    Mr. Linder. Thank you, Mr. Secretary.
    Chairman Cox. Does the gentleman yield back? The 
gentleman's time is expired.
    The gentleman from Massachusetts, Mr. Markey, is recognized 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    Mr. Secretary, as you know, over and over again the demands 
of industry have been allowed to trump public safety, the 
chemical industry, the cargo industry, the nuclear industry, 
they have all steamrolled the Bush administration for the last 
4 years in terms of public safety. So we get a chance here to 
start all over again.
    So I have taken, Mr. Secretary, your kind of formula, 
threat, vulnerability, consequences. The threat in each 
instance, Mr. Secretary, is al-Qa'ida. That is clear. The 
vulnerability; chemical plants that have no mandatory 
requirement to shift over to safer chemicals. Nuclear plants; 
there has been no realistic upgrade of the permanent standard 
against terrorist attack. Public transit; hundreds of thousands 
of deaths, hundreds to thousands of deaths could occur. The 
American Public Transit Association says that we should spend 
$6 billion to upgrade, the Bush administration has said no.
    LNG, and the Bush administration is now overriding States 
and local communities with a new law going through which says 
they can plant these LNG facilities in urban areas.
    Al-Qa'ida, also, wants to go after HAZMAT shipments. And 
there, the Bush administration is opposed, where possible, to 
rerouting into less densely populated areas. And in aviation, 
Mr. Secretary, the Bush administration, again kowtowing to the 
cargo industry and the airline industry, has refused to mandate 
100 percent total physical screening of cargo which goes onto 
passenger planes.
    So that is the formula, threat, vulnerability, 
consequences. And what I am going to talk about today, Mr. 
Secretary, is solutions.
    Mr. Secretary, number one. In aviation, would you support 
going to a 100 percent physical inspection of all cargo on 
passenger planes, yes or no?
    Secretary Chertoff. No, and let me explain why. And I will 
tell you, if you want to--it is not going to surprise you that 
I am going to disagree with your characterization of the policy 
being that industry trumps public safety. But I also think, in 
fairness, you ought to let me explain that when I talk about 
risk, I also talk about balance--
    Mr. Markey. I have to go through the six questions. That is 
all I get is 5 minutes.
    Now let's go to chemical security. Yes or no, will you 
require chemical companies to switch to safer chemicals, 
whenever possible, to reduce security vulnerability?
    Secretary Chertoff. I have to say, Congressman, I don't 
think anyone has yet established that the appropriate way to 
deal with chemical security is to get into the process of 
making people switch chemicals.
    Mr. Markey. Transit security; yes or no, Mr. Secretary, 
will you commit to fully implementing the recommendations of 
the American Public Transportation Association, which has 
called for an extensive security upgrade to prevent a London-
style attack in our country? Yes or no.
    Secretary Chertoff. I will commit to you a balanced 
approach that evaluates the specific risks with respect to 
transit, and balances them with respect to the other priorities 
that we have to deal with in dealing with our homeland 
security.
    Mr. Markey. All right. Now let's go to transportation of 
extremely hazardous materials. Will you require rerouting of 
shipments of the most deadly chemicals around densely populated 
areas if there is a safer route available? Yes or no.
    Secretary Chertoff. I am, and we are currently, working to 
look at the entire issue of transportation of hazardous 
materials in order to make sure we are assuring the safety of 
the public that could potentially be affected by using a whole 
menu of security measures--again focused upon risk management.
    Mr. Markey. Now, again, Mr. Secretary, for LNG--I still 
haven't heard a yes. Now, Mr. Secretary, for LNG, do you agree 
that LNG terminals, which are tempting terrorist targets, 
should be located offshore or away from population centers? Yes 
or no.
    Secretary Chertoff. I have to say, Congressman, I think 
that is an overly simplistic view of the situation. I think it 
is a much more complicated situation.
    Mr. Markey. Putting LNG facilities, new facilities, in 
densely populated areas as opposed to offshore or the most 
sparsely populated, that is not oversimplified, that is just a 
simple yes or no. Do you want to put highly desirable terrorist 
targets, new ones, in the middle of densely populated areas?
    Secretary Chertoff. I think the choice you have presented 
is an oversimplified choice.
    Mr. Markey. Okay. Fine. I will take that as a no.
    Biological vulnerabilities. Now, Mr. Secretary, yes or no, 
will you commit to completing the remaining material threat 
assessments within the next 60 days? Only four are completed 
thus far.
    Secretary Chertoff. I think our original target was to get 
those done by the beginning of next year, and we are on target 
to do that.
    Mr. Markey. The problem is, again, we are 4 years after 9/
11, only four of the 60 materials--
    Chairman Cox. The gentleman's time has expired.
    Secretary Chertoff. Mr. Chairman, if I could just complete 
the answer that I was originally trying to give, because I 
think it is an important point. When I talk about risk 
management, I also talk about balance. And let me just take the 
first example that Congressman Markey raised as an example of 
what I think we shouldn't be doing in security.
    I could guarantee that there is 100 percent security, for 
example--I could guarantee that there is not going to be any 
threat to cargo entering this country or getting on airplanes. 
I simply wouldn't allow any to get on, that would destroy our 
economy.
    Mr. Markey. Cargo on passenger planes. We are talking about 
passenger planes, Mr. Secretary.
    Chairman Cox. The gentleman's time is expired.
    Secretary Chertoff. We have to be very careful, when we 
talk about security levels, not to burn the village down in 
order to--
    Mr. Markey. The technology exists, Mr. Secretary, to screen 
all cargo on passenger planes. Why don't we do it?
    Secretary Chertoff. We have to be very careful to use 
technology and to use systems in a way that will not--
    Mr. Markey. That exists.
    Chairman Cox. The witness will suspend.
    The gentleman is one minute and 15 seconds over his 5 
minutes. He should at least permit the Secretary the courtesy 
to answer some of the several questions that he has put over 
the last 6-1/2 minutes.
    Secretary Chertoff. Thank you, Mr. Chairman.
    We have to be very careful when we decide what system of 
protection to use, that we deploy a system that works in a way 
that allows us to continue to let the economy operate, to 
continue that cargo to be shipped. A hundred percent physical 
manual inspection of anything will often destroy the very 
system you are trying to save.
    So again, when we do risk management--and a key element of 
that is balance--it is optimizing things. That applies to the 
transit system--it is optimizing things. That applies to the 
transit system, it applies all the way across the board. What I 
am committed to doing is a disciplined approach to risk 
management that considers what is the optimal amount of 
security, but does it in a way that does not destroy our way of 
life.
    Mr. Markey. Mr. Secretary, for 4 years the Bush 
administration has been protecting powerful industries and not 
protecting the public safety. That is going to be your 
challenge, to change that formula. The Bush administration thus 
far has sided with industry, not providing security.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Connecticut, Mr. Shays, is recognized 
for 5 minutes.
    Mr. Shays. I love my colleague from Massachusetts, but when 
you basically give such long comments and then ask six 
questions, it is clear you are not really interested in what 
the witness wants to say. And I think if you had just taken one 
of those issues, you could have probably had a very good 
dialogue back and forth.
    I do want to say to you, Mr. Chertoff, that I think you are 
doing an outstanding job. I think you are digging yourself out 
of a huge hole. We created a department, we did the best we 
could, we put 180,000 people in it, we took it from 20 plus 
different parts of the Government. And frankly, you don't yet 
have a culture that I know that you particularly want.
    I would want to just say, though, I do agree with Mr. 
Markey, particularly as he talks about passenger travel. We 
first checked people's luggage when they went on a plane; then 
we made sure we checked what suitcases went in the belly of the 
aircraft. But I find it outrageous that 22 percent of what is 
on a passenger plane is cargo. And I think Mr. Markey is dead 
right in saying that if it is on a plane that carries 
passengers, it should be checked. And I would think that that 
is a reasonable request that we have a timetable to know when 
it will be done.
    And furthermore, I think it is reasonable to say that if it 
is not going to be checked, the public has the right to know 
that on that plane is cargo that has not been checked. And I am 
interested if you would be willing to consider, one, a 
timetable, and two, warning people that cargo on a plane has 
not been checked.
    Secretary Chertoff. Well, I am happy to talk about this 
because clearly we do want to make sure that we have verified 
what is going into the cargo hold of a plane, whether it be 
what passengers bring with them or what gets shipped. But here 
again, we want to use a balanced approach, and that means we 
want to use intelligence screening and we want to check the 
cargo that we do not have a high degree of confidence in, but 
we also want to try to build systems which allow us to focus on 
a smaller and smaller amount of the cargo so we can do more 
efficient screening.
    There exists now, for example, various air express 
industries. Federal Express, DHL, UPS, are very sophisticated 
about tracking their packages. And there are ways of having 
them verify--
    Mr. Shays. Mr. Secretary, the problem with that is you are 
kind of going the route of the known carrier. And why would it 
make sense to check all the luggage in the belly of an aircraft 
brought on by a passenger, but it doesn't make sense to check 
all the cargo in the belly of the aircraft?
    Secretary Chertoff. Because where we have an ability to 
build a system that gives us confidence in the shipper and the 
cargo, so that we know what the cargo is and we can track it 
from the point of its entering into the supply chain to the 
end; we know what is inside; and we know we can target what we 
are worried about and what is a higher risk. When passengers 
present themselves to the airport, it is impossible to conceive 
of a system that would give us that degree of confidence. Now 
obviously, as we get technologies that are more and more--that 
operate more quickly and that are more precise, it is possible 
to actually inspect in a nonintrusive way a greater percentage 
of cargo.
    But here is what I don't want to do. I don't want to sit 
here without having that technology and say, we are going to 
make it--by manually checking every piece of cargo, we are 
going to make it impossible to put the cargo on that airplane.
    Mr. Shays. I hear your position. I will just say to you 
that I think it is really outrageous that we just don't warn 
passengers that the cargo on a passenger plane has not been 
checked. I will tell you I fly less because my knowledge of the 
system is better than the general public. And I think we 
endanger the general public by not checking the cargo in the 
belly of an aircraft.
    I would like to ask you about the failure of the Department 
to have gotten its report done on a strategy for protecting 
buses and trains and subways. The Department said 2 to 3 
months. If it was 2 months, it would have been the 1st of June, 
and 3 months the end of June. We still don't have it. It seems 
to me, since we were expecting April 1st, that we have a 
right--as Congress--to know when you will provide that 
information. And the reason I say that is we have money that is 
not being used. There is $150 million that is not being fed out 
to local governments to protect and harden their sites where 
they can.
    So I am assuming you are waiting and will not give out the 
money until we have a strategy. And when are we going to have a 
strategy?
    Secretary Chertoff. Well, as the deputy wrote--and I don't 
know what the date of the letter is--we did, obviously, not 
make the April 1 deadline. In the course of this process of 
review, one of the things we wanted to look at was the way we 
are handling rail and land transportation strategy. In fact, we 
are doing things now, we are doing programs now with respect to 
rail, including rail here in the Washington, D.C. area, that 
look at a whole menu of approaches.
    As far as the money is concerned, I believe a lot of the 
rail money has been moved out or is moving out; but again, what 
we want to do is not just push money out to have willy-nilly 
expenditures on systems. We want to make sure it is being done 
in a disciplined way. And there is no question that, you know, 
in the last few months we have taken a deep breath, we have 
looked at a lot of the ways we allocate grants, and we have 
tightened up that process. We have done it to avoid the kinds 
of things that we often got criticized for going back a year or 
two, which is people would say, oh, Homeland Security, they 
used the money to build a gymnasium, or they used the money and 
it is not really an effective use of the money.
    So we do owe you a plan, but we owe you a disciplined plan, 
and we owe you a plan that is intelligent. I want to make sure 
we get it right. We will get it promptly, but I want to make 
sure that we get it right.
    Chairman Cox. The gentleman's time is expired. The 
gentleman from Washington, Mr. Dicks, is recognized for 5 
minutes.
    Mr. Dicks. Mr. Secretary, we welcome you and thank you for 
meeting with some of us yesterday.
    Mr. Chairman, I would ask that the Secretary be given an 
opportunity to more fully reply in the record to Mr. Markey's 
questions, all of which I think are legitimate questions, but I 
do believe the Secretary did not have an adequate time to 
respond, and I think that would be only fair.
    Chairman Cox. And I will not take any of the gentleman's 
time to make the following announcement: Because by pre-
arrangement the Secretary has to attend a Cabinet meeting, we 
would like to have the Secretary or the Deputy Assistant 
Secretary back here to continue this hearing as well. We will 
work with the Department to see if we can do that. In addition, 
every member will have the opportunity to submit written 
questions for the record, and the Secretary and the Department, 
of course, will have the opportunity to respond fully. And 
that, I think, will give the Secretary ample opportunity to 
respond in full to the questions put by the gentleman from 
Massachusetts.
    The time, again, belongs to the gentleman from Washington.
    Mr. Dicks. Mr. Markey would like to--
    Mr. Markey. I would like to say, Mr. Secretary, that I know 
the President has called you down to the White House, and I 
know you are not going to be able to ask the questions of 80 
percent of this committee, so I guess every member's questions 
in writing will have to be answered, unless you do come back. 
And I think everyone should understand that who is watching 
this hearing, that it is about to end even though only six or 
seven members will have been able to ask you questions.
    Thank you.
    Chairman Cox. Well, I don't want to take any more of the 
gentleman from Washington's time, but I think in fairness to 
the Secretary, we also have to observe that he has been sitting 
here at a table with empty chairs here during the scheduled 
time of this hearing while we have been on the floor voting. 
That is nobody's fault, but that is why we find ourselves in 
this predicament.
    Mr. Dicks. Mr. Secretary, I wanted to reiterate the concern 
I have over the fact that the Department has been very slow on 
these material threat assessments, material threat 
determinations. The reason that is so important is we have 
appropriated $5.6 billion that cannot be utilized unless these 
things are done. And as Mr. Markey pointed out, only four of 60 
have been done. And they cover some very important items, where 
the country needs to at least examine the possibility of having 
some way of dealing with it.
    The other thing I wanted to mention, I think, as you can 
tell, there is a great deal of anxiety on the Hill and in the 
country about how well the Department of Homeland Security is 
doing. And I think the biggest challenge for you is to try to 
restore confidence. And not getting reports up here on time, 
having the Department being very slow to react on these 
material threat assessments, determinations, using a two-
fingerprint system in US-VISIT instead of 10, when all of the 
experts, NIST, everyone else says 10 is better, there are a 
whole host of these issues. The cargo issue in passenger 
planes. A number of these things need to be dealt with. I mean, 
you have got to show the country that there is a leader now in 
charge of Homeland Security, and someone who is not going to 
let these things drift on and who is going to honestly tell the 
country and the Congress and the American people about what the 
money--you know, if there is some areas where we can't spend 
money, then let's not waste money.
    We have got to deal with the major threats, the ones that 
will have the greatest possible impact, the use of a nuclear 
device, for example. And one of the threat assessments it has--
or determinations it has not got over to HHS is what to do 
about dealing with a nuclear weapon. We know for a fact that we 
will lose a million people potentially, in New York, Washington 
or wherever it is if it is detonated. Not to have that issue 
worked out between your Department and HHS is just negligence. 
You have got to take that responsibility. You have got to get 
in there and get on the phone and get that cleared up. And you 
have got to do it.
    We expect you now to lead this Department, and it is time 
for action, it is time to get this thing moving in the right 
direction. And we are confident that you can do it, but we need 
to see action.
    Thank you.
    Secretary Chertoff. Let me try to deal with several of the 
points you made. And let me begin by saying, although I talked 
yesterday about improvements that we need to make and I have 
talked to the Chair about improvements we need to make--and I 
will continue to talk about improvements--I wouldn't want to 
leave the public with the impression that nothing has been 
done. Quite the contrary is true. We are, in fact, considerably 
safer than we were--certainly before 9/11, and frankly, safer 
than we were last year--and that is because of a whole host of 
things we have done a lot better.
    I share with you the view that the issue of biological 
threats is at the top of the list--with a few other things--of 
threats, and one of the reasons we have talked about a chief 
medical officer and consolidating preparedness is precisely to 
create accountability and a system-wide approach to this issue.
    On the other hand, I am pleased to say that we do have, for 
example, under our BioWatch program, biosensors in 32 cities 
around the country. And where there is a next generation of 
sensors that we are going to accelerate bringing forward, they 
do a good job. In fact, they don't yield many false positives. 
So that is something we already have in place that we are going 
to make better.
    Likewise, I share with you the importance of doing 10 
prints, and that is why I announced yesterday we are going to 
do that. And again, we want to make sure we need to actually 
roll out the infrastructure, but I think at the end of the day 
we will take what is a good program, US-VISIT, and make it even 
better.
    Likewise, on the issue of nuclear detection, I think that 
is exactly why the President's budget envisioned having a 
domestic nuclear detection office--to give us essentially kind 
of a mini Manhattan Project on developing not only the 
technology for nuclear detection, but also the whole system and 
architecture for nuclear detection, and to make sure that what 
we are doing here at home is fully integrated with what we are 
doing overseas in terms of trying to locate loose nukes and use 
our intelligence to go out and focus on proliferation.
    So I think the three issues you raised are things that we 
are very much tuned into. They are built into the budget. They 
are built into our structural plan. I think the public should 
understand we have made a lot of progress, but they should also 
understand that, as I said, we are going to be candid about 
where we need to improve, and we are going to move very quickly 
to do that.
    Mr. Dicks. Thank you.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Indiana, Mr. Souder, is recognized for 5 
minutes.
    Mr. Souder. Mr. Secretary, I wanted to raise two somewhat 
different issues, one related to border. I know from meeting 
yesterday with the President that you are working on, and 
hopefully will be unveiling in the near future, some border 
initiatives. I want to make sure they call direct attention to 
something that many of us are working on here and are very 
concerned about. That is the lack of attention to the criminal 
smuggling organizations themselves; whether it be civil 
forfeiture laws that the GAO has pointed out that we need, 
whether it is the fact that ICE agents are only spending about 
7 percent of their time on these smuggling organizations, the 
lack of a coordinated strategy, even pass off of data from CBP 
to ICE, as far as--because you probably have the data on who 
these people are. And also, an OTM strategy--Other Than 
Mexicans. Right now, Mexicans are at least deported back into 
Mexico, while the others are released on their own 
recognizance, including if they don't have any terrorist 
record--if they are from one of the watch countries, they are 
released and lost to the system. And those are a number of the 
more pressing things. I hope that you have a clear 
understanding that it isn't just about biological and chemical 
and so on, but ultimately the borders are our key point of 
entry, whether it is airports, ports, or land borders.
    The second question, if you will respond, I would 
appreciate that, is that I chair the Narcotics Committee, I 
cochair the Speaker's Drug Policy Committee. It is very 
disturbing in as long a statement as you have that you didn't 
make any reference to counternarcotics, and yet you have legacy 
border patrol, legacy customs, air and marine, the Coast 
Guard--you have the bulk of the people who do counternarcotics 
enforcement. 20 to 30,000 people die every year. Just because 
they don't die on the same day at the same place does not mean 
they aren't dead.
    In fact, if there isn't a coordinated effort in your 
Department to make sure that this doesn't get lost, more are 
going to die. There wouldn't be any meth problem in the United 
States if pseudoephedrine wasn't pouring across the border; 
there wouldn't be any cocaine problem if cocaine wasn't pouring 
across the borders; there wouldn't be any heroin problem if 
heroin wasn't pouring across the border; there wouldn't be any 
BC bud problem if it wasn't coming across the borders. We can't 
tackle the narcotics problem without your agency.
    I have a letter that went to Secretary Ridge that has been 
held up. As you do your reorganization I wish you would look at 
it. It is particularly related to laws that we passed 
unanimously in the House and the Senate. One says that every 
officer has to have counternarcotics enforcement in their job 
performance measurement. And I would like your response--if not 
today because I know you are at the initial stages of this--to 
this request that we have put into your Department, as well as 
several others, about how your new reorganization is going to 
address the counternarcotics and border questions.
    Thank you very much.
    Secretary Chertoff. Well, as I think I indicated in my 
remarks yesterday, border is a very critical element, and that 
also involves counternarcotics, and our principle focus in 
counternarcotics is at the border.
    And you are completely right, we need to have a systems-
based approach that looks not only at the border itself, but 
what do we do about, for example, detention and removal of 
Other Than Mexicans.
    I have spoken to a number of Members of Congress about 
this. We are very focused on this, and we do have a strategy 
that we are going to be rolling out on this.
    Likewise, a piece of this is focusing on the smuggling 
organizations smuggling all kinds of things, drugs, and people. 
And we are, in fact, working cases with this.
    There is a structural change we are going to make which is 
going to help this, and this is the Operations Integration 
element. And what this is going to give is us the ability to 
look at operationalizing a policy like this across the board 
with Customs and Border Protection, with Immigration and 
Customs Enforcement, with Coast Guard, to make sure that when 
we make a strategic move at one part of the border, for 
example, or one part of the problem, everybody else is also 
taking account of that in adjusting and synching their 
resources. This kind of what the military does when they do a 
joint operation. I think that is the kind of mechanism that is 
going to make us more efficient in dealing with the concerns 
that you have.
    Chairman Cox. The gentleman's time is expired.
    The gentlelady from New York, Mrs. Lowey, is recognized for 
5 minutes.
    Mrs. Lowey. Thank you, Mr. Chairman. And I want to thank 
the Secretary again for meeting with us, and I hope that we can 
continue this communication on a regular basis. And I hope you 
understand from my colleagues the sense of urgency and anxiety 
that we feel. As a New Yorker, I went to too many funerals. We 
can't afford a 9/11, we can't afford what happened in London. 
And you know that all the threats primarily have been on the 
transit system. So if you sense an anger, if you sense that we 
are anxious, I think we are entitled to feel that way. And I 
understand that you are coming here and that you put a plan in 
place, but we don't have the luxury not to consider what just 
happened as a wake-up call and to act now, in addition to 
putting the plan in place.
    So if April 1 is a deadline for a comprehensive transit 
plan, this is July, Mr. Secretary. For you to tell me as a New 
Yorker that we don't get this until the beginning of the year, 
this is of real concern.
    I also want to mention two items. I have been trying to get 
from TSA, from everyone we could, from local airports, a 
comprehensive understanding of how many people at airports are 
going through with badges which they might have gotten 3, 4 
years ago and going into secure areas, be they maintenance 
workers, be they caterers, and not have to go through 
detectors. I can't even get a number. I finally got something 
from the Port Authority. They said, well, we think it is about 
7,000 at La Guardia. That is unacceptable, frankly. If Heathrow 
can do it, if other airports are working on it, everybody can. 
If I have to go through a metal detector, every worker should 
go through a metal detector. So I would appreciate a response 
at some point, not today, on this issue.
    Secondly, you must be aware that El Al has the technology 
to check all the baggage in the hold before any passenger goes 
on a plane--before any passenger goes on a plane, when all the 
cargo is on the plane. They increase, decrease the pressure, 
which from my understanding would detonate the bomb if there 
was a nuclear device in the hold. In addition to scanning and 
having human evaluation of each of the bags that are there, 
they open many of them, they use scanners on others, but they 
also do this to ensure that if there is a bomb on board it 
would explode before the people get on that. And I would 
appreciate a response to that at some time.
    Mr. Markey, all my colleagues and I share this sense of 
urgency. I feel a real responsibility to my constituents when I 
go to the New Rochelle train station, and I understand that 
Metro North trains--and this is the same in San Francisco, 
Washington, Boston, all these suburban trains feed into a 
central city transit system, and we have done almost nothing to 
harden these suburban stations. And I would really appreciate--
perhaps you can answer that if I have a few minutes left now. 
Are we focusing on the centralized targets in the transit rail 
system? What are we doing to ensure that we are securing the 
back doors into these targets, the suburban stations? Could you 
perhaps answer that? What are we doing now? We know that these 
people, many of whom came from Leeds, took these trains in. 
Some of them might have come by car. What are we doing to 
harden and protect our suburban stations?
    Secretary Chertoff. I am happy to address that, and 
obviously the other questions I will get you answers shortly. 
But I wouldn't want people to walk away with the impression 
that the fact that we haven't submitted a formal plan means 
that we are not planning on doing things at transit stations 
and train stations. And one thing I also want to make clear is 
this is not a Federal issue exclusively, we are working with 
State and local transit authorities.
    The general level of security in trains has increased since 
before 9/11 and since before Madrid. One of the things we did, 
in fact, after Madrid is we did quite a comprehensive analysis 
that we shared with our State and local transit agencies about 
lessons learned and things that could be done to enhance 
security, and that includes everything from what I described 
earlier, which is our BioWatch sensors with respect to 
biological things. It involves some use of cameras. We have got 
a system now we are deploying in Boston, New York and 
Washington to detect chemical attacks in train stations. It is 
an integrated system which uses video as well as sensing 
devices that would allow us to react quickly to a chemical 
attack. So there are a lot of things being done, there is more 
to be done.
    Mrs. Lowey. Mr. Secretary, could you tell me, or respond to 
me when you can, how much funding is directly to suburban 
transit systems? As I understand, there isn't funding for those 
devices. Could you discuss that?
    Secretary Chertoff. I will, but let me say this. I guess I 
feel an obligation to come back to this risk point. I 
understand everybody's station worries them personally, and 
when I lived in the suburbs of New York, if I got on a train, I 
had a station that would concern me. But we still have to drive 
our priorities ultimately by looking at consequence, 
vulnerability and risk.
    The New York subways--I rode the subways, I am sure you do, 
too. There are dozens and dozens of stations. We have to be 
very careful as we go about a process of managing security we 
don't break the system we are trying to save. We could never 
run the New York City subway station like we run an airport. We 
couldn't have people walking through magnetometers, it is not 
possible.
    Mrs. Lowey. Could we have dogs up and down with the police? 
I haven't seen them at suburban stations at all.
    Secretary Chertoff. We can do things with dogs, but again--
and here I have to say, I rely an awful lot on the people who 
manage the individual systems.
    Mrs. Lowey. But then they have to get the funding, and we 
shouldn't be making the false choices between chemical, 
nuclear, airplane. We don't have the funding for the transit 
system--
    Secretary Chertoff. I do have to say respectfully, and I 
don't want to get into a debate. In the end, again, it is about 
balancing choice. We still have to continue to look at those 
things which have the greatest consequence with the greatest 
vulnerabilities. And it is very easy to isolate and pick out a 
particular type of infrastructure, and we all understand how 
important that is, but at the end of the day we have to make 
sure that what we do looks across the whole range of things. 
And that is, I guess, part of my responsibility in this.
    So we will get you the answer on the suburban station, but 
I did want to make it clear that the people shouldn't think 
that the delay in presenting a formal plan suggests there 
hasn't been an awful lot of planning and working. And as we 
speak, our level of security is significantly greater than it 
was, and it is going to get better.
    Mrs. Lowey. Let me just say--may I just conclude--
    Chairman Cox. The gentlelady's time expired 2 minutes ago.
    Mrs. Lowey. If I could conclude and thank the Secretary. I 
have great confidence in you. But the issue of balancing is 
what concerns much of us, because let's recall we are up to 
upwards of 250 billion for Iraq, for Afghanistan. We need to 
protect our homeland here, and we shouldn't be making what I 
think are false choices between the transit system, between the 
airport system, between our container system and our 
evaluations.
    So I appreciate your work, I know it is a huge undertaking. 
Thank you for appearing before us, and we look forward to 
having further dialogue.
    Chairman Cox. The gentlelady's time has expired, and it is 
now past the time that the Committee has agreed the Secretary 
would be excused to attend the concurrently scheduled Cabinet 
meeting at the White House. At this point therefore I am 
constrained to thank you, Secretary Chertoff, for your valuable 
testimony, and thank the members for your questions.
    The members of the Committee, both those who have had the 
opportunity to ask questions and those who have not yet had the 
opportunity to ask questions will have additional questions in 
writing. I ask that you respond to these in writing. The 
hearing record will be held open for 10 days for that purpose.
    In addition, we look forward to continuing the Committee's 
inquiry on this topic with you and the Deputy Assistant 
Secretary in subsequent hearings, and it will be the chairman's 
suggestion that when that occurs that we pick up the 
questioning at the same place that we left off.
    Secretary Chertoff. Mr. Chairman, I just wanted to correct 
one misimpression. It is actually not a meeting at the White 
House, it is a meeting with Cabinet members, but it is going to 
take place at HUD. So I didn't want to have any 
misunderstanding on the record.
    Chairman Cox. I appreciate that. The witness is excused. I 
will hold the hearing open for an inquiry from the gentleman 
from New Jersey.
    Mr. Pascrell. Mr. Chairman, I would hope that the 
Secretary--and we thank him for being here today--could be back 
before the August break.
    Chairman Cox. I don't know when that might be, but it is 
the intent of the chairman and ranking member to move with all 
acuity on this topic and to have either the Secretary or Deputy 
Secretary up at the earliest possible opportunity.
    Mr. Pascrell. That may mean September or October.
    Chairman Cox. Well, I don't think so, I hope not.
    Mr. Pascrell. Well, I mean, most of us have not asked 
questions. I think at least if we can agree that within the 
next 2 weeks we will have the Secretary back, if that meets 
with his schedule, I think that is something that we are owed.
    Chairman Cox. All I can tell you is that that is the 
Committee's intention, and we will do the best we can, working 
with the Department, to make that happen.
    Again, I want to thank the members of the Committee, and 
our witness, now departed. Without objection, the Committee 
stands adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]

 
                 THE SECRETARY'S  SECOND-STAGE REVIEW:


 
                     RE-THINKING THE DEPARTMENT OF


 
                    HOMELAND SECURITY'S ORGANIZATION


 
                          AND POLICY DIRECTION


 
                                PART II

                              ----------                              


                         Monday, July 25, 2005

                          House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 4:08 p.m., in Room 
2154, Rayburn House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Smith, Lungren, Simmons, 
Rogers, Pearce, Harris, Jindal, Dent, Thompson, Dicks, Norton, 
Lofgren, Jackson-Lee, Pascrell, Christensen, Etheridge and 
Langevin.
    Chairman Cox. Welcome, again, Mr. Secretary.
    The Committee on Homeland Security will come to order. The 
committee is meeting today to continue hearing testimony from 
Department of Homeland Security Secretary Michael Chertoff on 
the results of his internal Second-Stage Review of the 
Department's structure policies, and programs.
    The Ranking Member and I, under our rules, have already 
given our opening statements. This is a continuation of the 
full committee hearing. In keeping with an agreement reached 
with the Ranking Member, Mr. Thompson, and with you.
    Mr. Secretary, I ask unanimous consent that the Committee 
proceed immediately to questioning of the witness by those 
members who did not have an opportunity to do so during the 
first day of this hearing on July 14th in the order in which 
they would have been recognized based on their appearance last 
week. Members who were not present at last week's hearing will 
be recognized after all other members have been recognized in 
order of their seniority or, if they arrived after the gavel 
today, in order of their appearance.
    Members who had an opportunity to ask questions at the last 
hearing will not be permitted to ask additional questions 
today. Without objection, so ordered.
    I thank the Secretary for accommodating the Committee with 
this return appearance and look forward to his continued 
testimony.
    Chairman Cox. The Chair now recognizes Mr. Pearce from New 
Mexico for 5 minutes.
    Mr. Pearce. Thank you, Mr. Secretary, for being here today.
    As we last visited with you, there were, I think, very 
direct questions about where you stand on the transit plan. 
What are the Britons and the Spanish doing? They are the ones 
who have seen this problem up close. Are they developing a 
comprehensive plan? Do they have metal detectors in their 
subways, in their public transportation and rail?
    Secretary Chertoff. Well, I think that, obviously, in 
looking at a transit plan, we have to consider the individual 
architecture of the particular system. It is hard for me to 
envision a circumstance in which you can efficiently have the 
kind of arrangement we have at the airport, for example, with 
magnetometers. There are different ways of trying to detect 
explosives or other dangerous devices. Obviously, chemical and 
biological devices, we do have sensors that work in terms of 
the ambient air mass, and of course, we are always looking at 
technology that might be useful in terms of detecting 
explosives, traces that might be found in the ambient air mass.
    And finally, of course, there are dogs, which are kind of a 
tried and true and very reliable low-tech method of detecting 
explosives. I think different systems use different menus and 
different arrays of these kinds of technologies.
    Mr. Pearce. And also, there is the allegation that the Bush 
Administration was trying to protect the industry. There, in my 
mind, is a very fine line between protecting the industry and 
protecting jobs. Can you tell me what other nations are doing 
with regard to changing the chemicals that they make? You have 
heard the question last time you were here. What are the 
nations doing, and how does that put us at a competitive 
disadvantage to keep from outsourcing our jobs?
    Secretary Chertoff. Congressman, I may not be conversant in 
what every country is doing; I am not aware that every country, 
as a matter of homeland security, is undertaking some kind of 
systematic requirement of altering the chemicals.
    Our philosophy here is obviously not to protect industry; 
our philosophy here is not to break systems that we are trying 
protect. I think we have a precise and important mission here. 
That mission is to raise our homeland security level to the 
optimal level without destroying the rest of our way of life. 
And to do that, we want to work with industry because industry, 
as with other elements of the economy, has to be able to 
function if we are to continue to be a prosperous nation as 
well as a secure nation.
    Mr. Pearce. I think terrorists would like nothing better 
than for us to shut down our own industry, if they can't get it 
done, they would enjoy us doing it for them.
    More to the point of the border in New Mexico, the Customs 
and Border Patrol and the ICE organizations a year and a half, 
2 years ago told me that they were going to be able to 
interoperate, yet we don't see that yet. And sometimes, you 
have got a backlog in one organization, while the guy is 
sitting next to him at a different function, different agency, 
can't help. What are we doing to break down that wall, and do 
you see it being broken down completely?
    Secretary Chertoff. Well, as I think I said, perhaps in my 
original testimony here, one of the critical elements in the 
agenda moving forward is to have the capability to look at 
Immigration and Border Patrol as a single system and, in 
designing a strategy, to avoid what you have identified, which 
is the tendency to scale up one part of the system without 
making appropriate adjustments in the rest of the system so you 
get a bottleneck. And what we are proposing to do is look at 
the entirety of the system from the time you first apprehend 
someone who is illegal through the time you detain them and 
remove them to make sure that we are appropriately adjusting 
our resources so that we don't have a mismatch in terms of the 
various stages of this process. And that is part of what we are 
anticipating achieving both in terms of our development of a 
border strategy and, more comprehensively, through a policy 
component which will have a planning capability that will let 
us look strategically at the entirety of the system as opposed 
to little pieces of it.
    Mr. Pearce. On page 4 of your testimony here, you talk 
about a preparedness baseline to analyze the possible threats. 
How do you analyze the possible threats into remote areas like 
the Second District where I think we are going to see the 
terrorists come through our district before any other district, 
and yet there doesn't seem to be much stimulation to take a 
look at those specific threats.
    Secretary Chertoff. Part of what we do to do a baseline 
preparedness is to consider the various types of targets, 
potential targets, the various types of threats and to make 
sure that we have taken steps to deal with prevention, 
protection and response where target and threat intersect.
    The second thing we want to do as is it relates to the 
border is map--and we have, in fact, done this already--map the 
topography, the different landscapes that we face in different 
parts of the border--some parts being urban, some parts being 
rural, some parts being really desert--and ultimately deploy a 
mix of technology, infrastructure and personnel that fits the 
particular landscape you are talking about.
    In the urban areas, for example, we need to be quite close 
to the border. And in some areas like San Diego we have put in 
double fencing and infrastructure that really is a barrier 
right at the border because we want to prevent people from 
running across and getting to bus stations or to transportation 
on our side.
    As you get into the desert, by contrast, you want to have 
more of a response in depth. You don't necessarily want to put 
people right up at the border, you want to be in a position so 
when people commit themselves, you can then deploy your 
resources effectively. And that is actually a more efficient 
way to do it than to have people right up against the border.
    Mr. Pearce. Thank you, Mr. Chairman. The time has elapsed.
    I appreciate your service.
    Chairman Cox. The gentleman's time has expired. I might ask 
the Secretary, because down at the wings of the hearing room, 
apparently, we are having trouble with the speaker system, if 
you can draw the microphone a little bit closer to you, then 
all the members will be able to hear your answers.
    The Chair next recognizes for 5 minutes of questioning the 
gentlelady from Texas, Ms. Jackson-Lee.
    Ms. Jackson-Lee. I thank the Chairman very much.
    And I certainly thank the ranking member.
    And Mr. Secretary, I thank you for accepting the invitation 
of Mr. Thompson for a meeting that we were able to have some 
weeks ago. I think it was very productive and certainly useful 
in our mutual commitment to homeland security.
    I believe that with homeland security we come to the table 
as a nation, but there are also regional concerns and regional 
differences. And you may have been in the region, but I would 
encourage and would like to extend an invitation to the 
Southwest region and particularly those States along the border 
that many of us might be able to join you there and highlight 
some of those unique and specific concerns. And I am going to 
try and run through a series of issues and some questions, and 
maybe the bionic 5 minutes that we have, you can bionically 
speed along.
    I do want to applaud you for, I think, understandable 
alerts around the train tragedies and terrorist acts in London. 
I think, even in Texas, we were able to understand orange 
alert, what it meant.
    I do want you just to comment on how the inertia has been 
on train security, and the answer I get all the time is money, 
money, money. But let me, if you would and let me just raise 
some others.
    I wrote a letter to the Department regarding our own 
Houston Office of Immigration, Customs and Enforcement. They 
suspected there were terrorist ties to some individuals, but 
they had a difficult time getting the FBI to respond. I 
consider both these entities good friends of ours, and again, 
this goes to the 9/11 citation of lack of intelligence sharing, 
and if you can talk about that as well.
    In our region, we have something called OTMs, other-than 
Mexicans. And you have heard the story that these individuals 
are not--we don't have sufficient detention facilities. And we 
may be allowing terrorists to enter our country because we have 
no system to deal with non-Mexicans who are coming into the 
country. And I would appreciate your response to that as well.
    The U.S. VISIT program I have seen in operation in a number 
of places around the country, and the question is, do we have 
enough money? What can Congress do to help you fully implement 
that program? We talk about it, but does it really work?
    And lastly, something that I want to dwell on a little bit 
more, and that is this question of volunteers, Minute Men. 
Those of us who study our history know that the high calling of 
the Minute Men in the early revolutionary days lends this name 
to a lot of celebration. I have heard the President suggest 
that this is not the way to go. I think we need real 
immigration reform. We need to take up the responsibility of 
immigration.
    Mr. Secretary, you have the Minute Men alleging that they 
will be in the City of Houston. The last time I looked, we were 
many, many miles away from the border. You have my religious 
community up in arms and many people up in arms. These are 
individuals who have their rights, I acknowledge that. What is 
the Department doing about monitoring the potential violence of 
the border, monitoring the growth of the Minute Men movement 
and answering their concerns, which is dealing with 
comprehensive immigration reform and security at the borders?
    And I thank you for your presence here today.

           Prepared Statement of the Hon. Sheila Jackson-Lee

                             July 25, 2005

    Thank you Chairman Cox and Ranking Member Thompson for holding 
today's critical hearing. I also appreciate the time that Secretary 
Chertoff has taken out of his schedule to meet with us not only in this 
forum but in the briefing of Members given previously. Analysis of the 
Secretary's ``Second Stage Review'' is essential to the oversight 
functions of this body, and I hope that we receive frank and 
expeditious response to our inquiries. Because neither this body--nor 
Congress will have an opportunity to give final oversight prior to 
self-implementing organizational changes, it is enormously important 
for Members to cover as many deficiencies in the current organizational 
and functional aspects of the Department as possible in order to make 
the Secretary aware of their importance to the respective congressional 
districts of America.
    One of the big questions I will have for the Secretary relates to a 
letter that I sent to the Department dated June 5, 2005, as to a recent 
conflict whereby the Houston office of Immigration and Customs 
Enforcement (ICE), in connection with an ongoing investigation of an 
individual in Houston suspected of terrorist ties, claimed that the 
Federal Bureau of Investigation (FBI) wrongfully impeded the grant of a 
request for a wiretap authorization. This issue raised serious and 
pressing questions as to the authority, jurisdiction, and competence of 
both the Department of Homeland Security as well as the Department of 
Justice as to the nature of their interaction under the US Code. We 
need to receive an answer as to whether the Department has or plans to 
propose a plan to distinguish its jurisdiction from that of the 
Department of Justice.
    Of equal importance, the Minuteman Project has announced that it 
will bring its volunteer border patrol efforts to Houston sometime in 
October this year. I reiterate my position that the issue of volunteer 
militias such as the Minuteman Project generates a number of potential 
legal and social problems. On July 9, 2005, I held a meeting in my 
Houston office with members of the Federal, State, and Local law 
enforcement agencies that included County Constables, the Houston Fire 
Department, the Federal Bureau of Investigation-Houston Division, and 
the Houston Police Department to discuss the possible adverse impact on 
the City's communities and ways in which local law enforcement can 
prevent violent incidents. I will look to the Secretary for a response 
to the question of whether the Department will establish a plan to 
address any violence that my come about as a result of the Project's 
pseudo-immigration law enforcement activities.
    In addition, the 9-11 Commission Report determined that ``[i]t is 
elemental to border security to know who is coming into the country'' 
and be able to monitor (unauthorized) entrances of aliens between ports 
of entry on American borders. Further it found the, ``challenge for 
national security in an age of terrorism is to prevent the. . .people 
who may pose overwhelming risks from entering. . . the U.S. 
undetected.'' The 9-11 Commission report on Terrorist Travel found that 
there ``is evidence that terrorists used human smugglers to sneak 
across borders.''
    Border Patrol data last year demonstrates that from October 2003 to 
June 2004, 44,614 non-Mexican aliens were apprehended trying to cross 
the northern or southern borders. Of those, significant numbers came 
from countries designated as state sponsors of terrorism or have 
significant present-day or historical problems with terrorism.
    In 1990 the Border Patrol created ``Operation Hold the Line'' in El 
Paso and placed agents directly on the border. The program dramatically 
reduced illegal crossings and the operation was reproduced in the San 
Diego sector of the border with similar results. However, these 
programs cannot be expanded to other locations given the small number 
of Border Patrol agents and the length of the land borders of the 
United States. Professor Bean of the University of Texas found that 
approximately 16,000 Border Patrol agents would have to stationed at 
the border to reproduce the effects of ``Operation Hold the Line'' 
along the southwestern border. Additional agents would be needed to 
patrol the northern border. Currently, there are only 11,000 Border 
Patrol agents. In New Mexico alone, there are 425 agents to patrol 
14,000 square miles. Much of the border lacks border markers. The 
Southwest New Mexico Border Security Task Force, a group of New Mexico 
and federal law enforcement agencies, issued a report in 2003, stating 
it did not have the resources to prevent illegal crossings of drug 
dealers, illegal immigrants, and weapons of mass destruction. The 
Intelligence Reform and Terrorism Prevention Act of 2004 authorized the 
funding of 10,000 more Border Patrol agents over five years. The 
absence of this funding in the President's budget proposal is 
troubling.
    The 9-11 Commission staff also found that the lack of enforcement 
of our immigration laws in the interior facilitated terrorism: ``abuse 
of the immigration system and a lack of interior immigration 
enforcement were unwittingly working together to support terrorist 
activity. . . the first problem encountered by those concerned about 
terrorists was an almost complete lack of enforcement resources. [No 
one] ever provided the support needed for INS enforcement agents to 
find detain, and remove illegal aliens, including those with terrorist 
associations.'' The Government Accountability Office found that 
approximately 40% of the illegal immigrant population originally came 
to the United States with visas. Controlling the borders alone will not 
be enough to combat terrorism within our borders. The Commission staff 
found that ``the budget for interior enforcement remained static in the 
face of an overwhelming number of immigrants outside the legal 
framework.''
    Currently, there are only 2000 Immigration and Customs Enforcement 
(ICE) investigators and approximately 400,000 alien ``absconders'' 
(those formally ordered removed or deported by a court). Eighty 
thousand of those absconders have criminal records. The San Diego ICE 
office ranks at the top of numbers of apprehensions for 2003; yet, at 
its highly productive rate, it would take ICE 37 years to apprehend the 
absconders nation-wide, assuming the rate of absconders apprehended 
does not increase. Statistics released by Customs and Border Patrol 
show an increase in apprehensions of illegal aliens, indicating the 
possibility of larger numbers of illegal aliens crossing the border. 
The Intelligence Reform and Terrorism Prevention Act of 2004 authorizes 
an increase of 800 ICE investigators each year for the next five years. 
Again, the absence of this funding in the President's budget proposal 
is troubling. I hope to engage Secretary Chertoff for the Department's 
response to this ever-growing problem.
    Mr. Chairman, again, I thank you and the Ranking Member for your 
hard work, and I yield back my time.

    Secretary Chertoff. I am going to try to address all of 
these, I think. I have taken some notes.
    As it relates to train security, we are and have been 
actually for some time very focused on train security. And that 
obviously was something that occurred in the wake of 9/11. We 
have gotten stronger and more robust in our response since 9/
11. Since Madrid, I think that we have had over $8 billion in 
money that has been made available in homeland grants and urban 
security grants that have been available for rail security.
    Among the things we are particularly focused on is the need 
to apply new technology, including sensing devices that would 
allow us to pick up the possibility of chemical and biological 
agents, which I think is something we are all concerned about.
    Turning to the question about relations between ICE and the 
FBI, I can tell you from my experience we do have a very good 
relationship. I have seen a number of instances in which we 
have worked very closely with the FBI in pursuing cases. My own 
experience tells me, occasionally, somebody drops a stitch, and 
it is kind of human nature, but we do--I think there is very 
strong direction from the top, both from myself and Director 
Mueller, to make sure that everybody understands we have a 
common mission here, and we have to work together to accomplish 
it.
    As it works to OTMs or other-than-Mexicans, I completely 
agree with you, this is a very serious issue for us. There is a 
shortage of beds. The appropriation measures that I think have 
now been passed by the House and the Senate do provide for 
additional beds. But I want to go further and say we are 
looking very hard at the entire system because part of dealing 
with this issue is not merely having additional beds, but it is 
moving people more quickly back to their home countries. If, 
for example, it takes 40 days now to clear a bed in the sense 
of getting somebody back to their home country and if we can 
cut that time to 20 days, it is essentially doubling the number 
of beds. That means we are going to have to look again at the 
whole system, including asking our overseas allies to accept 
back their own nationals in a prompt fashion, using such 
technologies as video conferencing so that we don't have to 
wait for consular officials to come up and interview people. 
And I think, by doing this, we really are focused on getting 
this catch-and-release program ended so we can pick up OTMs at 
the border and then return them promptly to their native 
countries.
    Our U.S. VISIT is working well. I have heard, frankly, 
unsolicited praise from our overseas allies about how well it 
is working. I want to encourage Congress to appropriate the 
money requested in the President's budget for 2006, which is 
what I think we need to continue building upon the work that we 
have already done in U.S. VISIT and to let the system be fully 
deployed as I think was originally envisioned.
    Finally, as it relates to the Minute Men, I guess what I 
can say is this: Obviously, this is a free country. People can 
demonstrate and express their views. On the other hand, I do 
believe that the enforcement of the law is the job for 
professionals. As you pointed out, the border is a dangerous 
place. Several weeks ago, I spoke to a couple of Border Patrol 
agents who were seriously wounded when they were ambushed at 
the border in a type of ambush that I would describe as almost 
military in its precision. And I do not think the border is a 
place for people to operate in an untrained fashion. And I do 
think the Border Patrol ought to be allowed to focus its 
resources on what its principle mission is, which is policing 
the border and making sure we have border security.
    Chairman Cox. The gentlelady's time has expired.
    The gentlelady from Florida, Ms. Harris, is recognized for 
5 minutes.
    Ms. Harris. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, it is nice to have you back.
    I wanted to ask you a couple of questions today. In your 
previous testimony, you had stated that the United States must 
improve its immigration system through bolstering our border 
security. And a couple of weeks ago, I testified before the 
Senate Foreign Relations Committee on my bill, the North 
American Cooperative Security Act. It seeks to improve the 
security and the safety of the United States, Canada and Mexico 
through the better coordination and management of our shared 
international borders. And specifically, this legislation 
engages Mexico as a law enforcement partner through a number of 
security programs, like biometrics or apprehension of gang 
members prior to their arrival at our border or strengthening 
their southern border where they have had so many problems or 
utilizing their joint or their agency task force, which is 
calling for more cooperation in law enforcement and 
intelligence efforts among these three nations. So I wanted to 
have your comments if I may on this type of integrative 
strategy. And what kind of role do you think it can play in 
achieving the Second-Stage Review's imperative in terms of 
strengthening our borders?
    Secretary Chertoff. Well, I haven't had an opportunity to 
see the specific bill, and I look forward to reviewing it and 
working with you on it. But I will say that I agree with the 
approach that we need to be integrated in our dealing with the 
border, and we need to work cooperatively with Canada and 
Mexico. In fact, the President in March had a summit meeting 
with the Prime Minister of Canada and the President of Mexico 
in Texas, and at that summit, the leaders of the three 
countries agreed on a security and prosperity partnership, a 
significant element of which was joint cooperation in terms of 
border security for all three countries, and that includes 
border security for Mexico in terms of its own southern border 
and working cooperatively with Canada and Mexico in terms of 
our common interest in North America in making sure that we are 
keeping dangerous people out.
    So we have a shared interest in all of our security, and I 
think that security is an important condition of our mutual 
prosperity. So things which promote that kind of joint activity 
are helpful in raising all of our level of security in all 
three countries.
    Ms. Harris. No question, in homeland security, part of the 
most important strategy is strengthening their prosperity. Any 
time you have that kind of poverty in other countries, it can 
be the seedbed of terrorism.
    I want to shift degrees a bit. And we talk about disaster 
preparedness and the hazards that homeland security has to 
address, and terrorism immediately comes to mind. But there are 
a number of other hazards, like natural disasters, that the 
Department must also be responsive to. And coming from my State 
in a region that was recently devastated by four hurricanes, I 
would like to know what your restructuring is going to do. 
Every time we hear a weather report, every time we see these 
things coming on, we have great concerns. And I am sure you are 
aware that, while Florida experienced a great deal of help 
initially, long term, it was real problematic in terms of the 
inconsistency and the lack of accountability dealing with the 
Federal Emergency Management Agency. They all received--
administrators from different counties received different 
levels of explanation of what could be compensated and what 
could not, and that changed with every new person that came in. 
And it caused a lot of confusion. And actually small, 
economically-impaired counties have had to go and borrow funds 
just to be able to make up these differences that FEMA said 
would be forthcoming in just a matter of weeks.
    How do you perceive the proposed organizational shifts 
within the Department, including the creation of the 
Undersecretary for Preparedness, how do you see that will 
improve some of these circumstances that have plagued the 
agency?
    Secretary Chertoff. Well, last year, as we all know, was an 
unusually harsh year for hurricanes. And of course, we hope 
that is not repeated again, but one thing that we can't do is 
prevent hurricanes.
    Clearly, FEMA has to be an all-hazards agency. And 
traditionally it has been the lead actor and the core mission 
of making sure we are capable of responding to all hazards, 
including, obviously, hurricanes.
    What the restructuring proposes to do is to take out of 
FEMA a couple of elements that were really not related to its 
core mission, that were more generally focused on the issue of 
preparedness in a way that I think was frankly more of a 
distraction for FEMA than an enhancement to FEMA. Obviously, 
FEMA's expertise as a response and recovery agency and as an 
operational agency is very important to our preparedness effort 
as is the expertise of a number of our components, like Secret 
Service or Coast Guard, which are also going to be obviously 
working very closely with our preparedness component. But we 
wanted to make sure that FEMA was, as an operational agency, 
capable of focusing on its core mission, that it was a direct 
report to the Secretary so it gets the direct attention that it 
needs. And we wanted to make sure the leadership of FEMA was 
not torn between its need to focus on the FEMA role and these 
additional rather more strategic preparedness functions to 
which I think we are now seeking to unify and put together in a 
coordinated fashion.
    Ms. Harris. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady's time has expired.
    The Chair recognizes for 5 minutes the gentlelady from the 
Virgin Islands, Dr. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. These are short 
5 minutes.
    Thank you, Mr. Secretary, for coming back to the committee 
again today. You know that I have some concerns about your 
emphasis on risk, given that I come from a high vulnerability 
area. And in your outline, you speak of a preparedness 
baseline. Is it your intention that we would provide the 
funding, training and support to every jurisdiction in the 
country to bring them up to that baseline that you set?
    Secretary Chertoff. Well, I don't know that I can give a 
blanket statement like that. But I think what we need to do is 
look at the issue of risk, consequence, vulnerability and 
threat across the whole country. What I don't think we want to 
do is duplicate the effort in every single jurisdiction, I 
think we need to analyze the precarious circumstances of the 
jurisdiction against this template of risk and then make 
decisions about the kind of help we offer based on that 
analysis. Sometimes, it will be guidance and instruction. 
Sometimes, it will be training. Sometimes, it will be grant 
funding.
    I understand having been to the Virgin Islands, as an 
island with a whole set of unusual circumstances in that it is 
not like have you adjoining jurisdictions that can give you 
mutual aid, and that is obviously a factor to be taken into 
account. But again, this is, at the end of the day, a national 
set of issues, and one in which we have to apply--although the 
standards will apply in the individual circumstances, it has to 
be a common standard.
    Mrs. Christensen. Thank you.
    You also said one of the times you were here and also in 
your statement that we must gain control of our borders. Can I 
rest comfortably that you mean all of the borders, including my 
200 or so miles of unprotected border? And also, what is your 
commitment to the third border, the Caribbean?
    Secretary Chertoff. Well, again, our borders are our 
borders. And I think we have to be committed to controlling 
them all. And again, we want to do it in a way that doesn't 
interfere with a kind of legitimate cross border activity that 
we want to promote, whether it be the southern border, the 
northern border or islands. In each case, we want to encourage 
people to travel. We want to have visitors and tourism and 
trade, so we want to build a system of border security that 
encourages that, but that gives us confidence that the people 
who are coming in are coming in for appropriate legal reasons 
and not illegally.
    Mrs. Christensen. We had several hearings recently on 
Bioshield or Bioshield-related issues, and we heard first from 
Department of Homeland Security and Health and Human Services. 
We heard from scientists. We heard from the private sector. And 
those hearings left us kind of rather uncomfortable about our 
readiness for bioterrorism or a radiologic event. And the 
slowness of the progress is part of it, but also a sense of, 
there is a lack of expertise and experience in both Departments 
above the level of CDC, of course, and a lack vision and 
openness to new ideas and looking in new directions to solve 
the problems, especially in a situation where we are dealing 
with a rapidly advancing, changing type of agent that could 
possibly come at us. And how will your new chief medical 
officer, that position, address this? And would that person be 
in place--if we were to have--if we were to have a bioterrorism 
attack next week, who would be in charge?
    Secretary Chertoff. Well, I think I have made it very clear 
in the last few months in which I have spoken about this, that 
I think there is probably nothing that is more important than 
dealing with the issue of a bioterror threat either to our 
human health or our animal health or food system, and it is 
certainly in the front line of things we need to be concerned 
about. I don't want to suggest that there hasn't been a lot of 
work; there has been a lot of work. But, clearly, we need to go 
further with Bioshield.
    Now, we are reviewing a whole host of potential biological 
threats now in cueing up or lining up so to speak the next set 
of biological threats to be eligible for Bioshield protection. 
I envision that, early next year, we will have prioritized a 
number to then put through the process of a threat assessment 
and a threat determination.
    More broadly, the expertise in the area of human health is 
really held by HHS, but the architecture and the responsibility 
of our system for dealing with a disaster and making sure 
everything is integrated is part of DHS. I have spoken several 
times with Secretary Leavitt, and most recently we had lunch 
after my prior appearance here. And we are both very strongly 
committed to moving forward on building a system of plans that 
will deal with any of these threats. Some of them are further 
advanced than others. We have had some unfortunate experience 
with Anthrax, and we have learned some things from that. We 
still have more to do. And what the Chief Medical Officer will 
do is unite within my Department somebody who can be the 
principal point of contact and coordination with the other 
Departments who work on this issue, including those in State 
and local government. And I envision, actually--I am hoping in 
the next few weeks to get down with Secretary Leavitt to do 
some visiting at the CDC and some other locations to make sure 
that we further moving this along.
    Mrs. Christensen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentlelady's time has expired.
    The gentleman from Alabama, Mr. Rogers, is recognized for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Secretary, for being here.
    I would like to preface my questions by acknowledging that 
what I am referencing didn't happen on your watch, and it is 
not your fault, but ensuring that it doesn't happen again is 
your responsibility.
    All of us on this Committee are keenly aware that the 
alleged and demonstrated wastes of money at Homeland Security 
over the first few years of its development have been a 
problem. They have been well noted in U.S. News and World 
Report, CBS', 60 minutes and, most recently, in a two and a 
half page layout in the Washington Post--pretty wild abuses of 
expenses. And, while I don't attach any malfeasance to most of 
these problems but more attribute it to the immense mission 
that was hoisted upon the organization, what in particular are 
you doing to make sure that the procurement abuses and other 
wastes in spending do not continue to happen on your watch?
    Secretary Chertoff. Well, I appreciate the question, 
Congressman, because I read the stories, too. I saw some of the 
things on television. And I would first hasten to say that not 
all of those stories are correct or necessarily fair in their 
description of what happened. I think it is fair to say, of 
course, that whenever you feel enormous pressure to roll out a 
program of security in the wake of, obviously, the 
extraordinary circumstances of 9/11 and when you do it in a 
very accelerated fashion, you are going to run the risk of 
something less than a precise expenditure.
    I will tell you what we have done in the last few months to 
try to address this issue. One of the first things that I did 
when I came on board was to call the Inspector General, then 
the acting Inspector General, and say, Look, I would like you 
to tell me what you think are things we need to do to assure 
the efficiency and integrity of our procurement program. And he 
did that. And that was part of our Second-Stage Review, and we 
are now working to implement that.
    One of the other things we did was we looked at the grant 
process, and, in fact, we slowed it down a little bit and got a 
little criticized for doing it precisely because we wanted to 
start to put in place that the kinds of standards that would 
allow us to make sure we are not getting grants out for leather 
jackets under the rubric of Homeland Security. And we now have 
a set of national preparedness goals which is moving us in a 
direction of a precise set of standards through which we can be 
held accountable. One of the things we did, for example, with 
respect to ports was we trimmed down the number of ports that 
were eligible for port security grants, which I think was 
originally 360 or so, to, I think, approximately 66 or 67. And 
yet all of these are movements in the direction of greater 
discipline in financing and procurement and in making sure the 
money that we are expending is being focused on risks and 
priorities and not just on any national thing which someone can 
put under the label of Homeland Security.
    Mr. Rogers. I would ask you to ask your staff to visit a 
May 27th letter I sent you inquiring about some documents 
relating to the ISIS program. I still haven't received a 
response to that, and I would like to have that so I can go 
forward with a subcommittee hearing next month on it--rather in 
September.
    But ISIS was the poster child in my view of procurement 
abuse and problems. As we look forward to the America's Shield 
Initiative, I think we need to take ISIS as a lesson-learned 
pilot program and make corrections.
    As you look forward to the America's Shield Initiative, 
tell me about your vision for that, because, as I understand, 
it is a $2.5 billion program over 5 years? Tell me, do you 
still see those costs as accurate? And, what is your vision for 
that program? When will it be implemented?
    Secretary Chertoff. I think one of the things we did in the 
Second-Stage Review was to stand back and look at whether that 
program ought to be reconfigured or redesigned to be a somewhat 
different strategy that doesn't merely apply more of the 
existing technology to the problem at the border but rather a 
program that looks to the next generation of technology and 
considers maybe a broader range of options and puts together in 
particular a program to acquire technology, not just in a 
vacuum, not just a lot of new gadgets, but in a way that fits 
with how we are going to deploy our additional Border Patrol 
resources, our agents and our infrastructure.
    And I think our vision is to--and we are in the process of 
doing this--to select and identify a program manager who will 
build a comprehensive and strategic program to acquire 
technology and infrastructure in coordination with some 
additional Border Patrol agents. So I think that there may very 
well be some significant changes in the way that program rolls 
out, precisely because we want to avoid what may be putting a 
lot of money into something which is current generation as 
opposed to something that is going to make the service better.
    Mr. Rogers. Thank you, sir, I yield back.
    Chairman Cox. The gentleman from Rhode Island, Mr. 
Langevin, is recognized for 5 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    And Mr. Secretary, I want to thank you for coming back so 
soon, especially since we have been able to get this hearing in 
before the August break. These are very pressing questions that 
many of us want to get to.
    I want to start my questions in the line of information 
sharing and how your Department particularly is going to work 
with the NCTC. I had the opportunity to do a site visit out to 
NCTC last week, and I am very impressed with the operation they 
are standing out there. Obviously, there is a lot of work yet 
to do to see how well it is going to function, but I was very 
sure of what I found.
    One thing that I was concerned about, though, is that DHS 
really doesn't have a presence out there with respect to the 
intelligence branch of DHS. And I asked the question, why? And 
they said, Well, originally DHS didn't want to be a major 
player with NCTC but has since changed and that they are 
looking to now have a presence there. Space is a problem, from 
what I am told, but the question is, will you clarify for me 
and for the committee, will DHS have a presence out at NCTC? 
And how will the roles function?
    Secretary Chertoff. Well, I most definitely anticipate and 
want to have DHS play a role in NCTC. I have told the DNI, 
Ambassador Negroponte. I think he agrees with that, I think his 
principal deputy, General Hayden, agreed with that. I think now 
it is just a question of finding the space and handling the 
logistics, but we are committed to doing this and is one of the 
things I anticipate our new chief intelligence officer will be 
taking responsibility and making sure that happens.
    Mr. Langevin. Well, on that issue of the creation of a new 
chief intelligence officer, while I think this is certainly a 
promising development and I applaud you for moving in that 
direction, many questions remain about the role and the 
responsibility of this new Department officer. And my question 
is, will the new intelligence officer have direct line 
authority over intelligence officers in other agencies such as 
TSA and CBP so that he or she can drive a common intelligence 
mission?
    And additionally to that, what will his or her role be vis-
a-vis the new director of national intelligence and the rest of 
the intelligence community in particular? This committee has 
often struggled to understand where the intelligence component 
of DHS fits in with the rest of the community. And the question 
is, have you thought about this issue as part of your review, 
and what conclusions did you reach?
    Secretary Chertoff. Well, we have thought about it. And the 
Chief Intelligence Officer of course will be the component head 
of information analysis. The individual component heads for the 
intelligence entities inside our various components will 
continue to function within their components, but their 
activities and particularly their requirements will be 
coordinated by the chief intelligence officer. And the chief 
intelligence officer will be one of the two intelligence 
officials at DHS who is part of the intelligence community. 
There will be the chief ambassador to the intelligence 
community as well as to the State and local officials with whom 
they work. So they will really have the authority and the 
visibility to look across the Department in terms of all of our 
intelligence activities, in terms of setting requirements for 
collection, in terms of fusing the analyses and pushing that 
analysis out.
    Mr. Langevin. Thank you. My last line of questioning shifts 
over to the potential biothreat that we face in this country 
and a potential bioattack. Can you walk me through how you 
would expect to learn, how quickly you would know that this 
country is experiencing a bioattack? What resources are you 
relying on, and how quickly are you going to know?
    Secretary Chertoff. Broadly speaking, we have three ways of 
determining that some things are going on: One is classic 
intelligence, obviously. If we were to, either through signals, 
intelligence or human intelligence become aware of someone who 
is planning an attack or carrying out an attack, that would be 
one vehicle. The second is our surveillance through various 
detection devices. Our Biowatch program has deployed technology 
in over 30 cities now that enables us to sample the air and 
determine with a very high degree of precision whether there is 
something in the air that is a biological agent.
    Thirdly, of course, we rely on the network of public 
health, which is really operated by HHS, in which people who 
report in become a source of information. This is a typical way 
in which public health officials identify an epidemic or a 
pandemic, and something like this would apply as well with 
respect to a biological attack. So we have these three avenues.
    What we are working very hard to do is to advance on all 
three fronts, obviously getting better intelligence about what 
is being planned and carried out operationally. Secondly, we 
are working to accelerate our Biowatch program to get to the 
next level of detection equipment that will be cheaper and 
quicker, and we can deploy it more readily and get quicker 
responses. And third, and this is principally operated by HHS, 
working to educate and give public health and hospitals in the 
field greater knowledge of what they have to look for and 
greater ability to communicate in real time. These three 
approaches I think are the way in which we will be best 
situated to detect a biological event. And of course, we broke 
into the postal system biological detection capabilities. Now, 
we want to continue to do that in a lot of other areas, 
particularly those where we might have an avenue of 
transmission of a biological agent.
    Mr. Langevin. And you said just a little while ago, you are 
going to be going out to the CDC soon, and I encourage you to 
do that. I am glad to hear you will be there. I had the 
opportunity to do a site visit to CDC a few weeks ago. And one 
of the questions I asked is, how robust is our system for early 
warning reporting from public health facilities? And we need 
some work to do there. And I am sure you can discuss that, and 
I would encourage you to ask that question.
    Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from California, Mr. Lungren, is recognized 
for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    And thank you, once again, Mr. Secretary, I appreciate it.
    I want to join others in thanking you for your plan to 
raise the visibility and strength of the position of the 
Assistant Secretary for Cyber and Telecom. I think that is 
something that you find tremendous support for in this 
committee and something that needs to be done.
    Secondly, you have repeatedly talked about the necessity 
for us to be involved in risk-based assessment to drive our 
strategy and to drive our funding. I agree with you. I know you 
took this position because you believe that we have a unique 
responsibility to respond to the terrorist threat that is out 
there, evidenced so strongly by 9/11, but it existed before 
that. We didn't take it seriously enough. You indicated we 
can't have business as usual. I think I agree with that as 
strongly as I possibly can, and yet there does seem to be an 
effort to do business as usual on this Hill in some respects. 
And I guess my question is, really, how strongly you are going 
to fight for risk-based assessment analysis.
    This committee passed out a bill that basically guarantees 
.25 percent to every State except for the border States, .45 
for those. And now we have the other body coming up with a 
new--an alternative--that goes to .55 percent to all the 
States. That obviously moves away from true risk-based 
assessment. That obviously goes in the direction we have been 
in before. That obviously, as far as I am concerned, is 
business as usual.
    And my question to you is, how strongly are you going to 
fight for the risk-based assessment strategy as opposed to 
business as usual, which some people seem to think makes sense 
even in the aftermath of 9/11 and two bombings in London?
    Secretary Chertoff. Well, I think, as I repeatedly stated 
and I think I said most recently in a letter that I sent in 
connection with the Senate's consideration of the 
appropriations, I think we have to, to the extent possible, 
have a risk-based approach to what we do in terms of how we 
deploy all of our resources. That includes grants. It includes 
what we do as operators of various components of the Federal 
Government. And of course, when I looked at the question of 
risk-based analysis, I don't see jurisdictional lines between 
States or between cities. I look at people. I look at places. I 
look at targets. I look at infrastructure. I look at 
transportation centers. I can't tell you which States are 
winners and losers in that formula because I don't think that 
it is political jurisdiction which drives it. I think what 
drives it is looking at where the impact on population would be 
significant, where the impact on infrastructure would be 
significant, where the impact on our transportation or our 
economy would be significant. Those are the kinds of factors 
which I think ultimately drive a risk-based analysis. And I 
think it is one that, to the extent we can accomplish that, we 
will be doing I think what the public expects in terms of our 
responsible use of limited resources in an environment in which 
we face some very, very serious threats.
    Mr. Lungren. Would you agree that a formula that guarantees 
.55 of a percent as opposed to .25 of a percent moves away from 
which you just articulated?
    Secretary Chertoff. I would think that a system that does 
as much as possible to give the Department the ability to do a 
risk-based factor not focused on, Mr. Secretary, jurisdiction, 
but focused upon things, people and targets. I think that is 
where we want to head. And I think the closer we move to that 
goal, the better off we are.
    Mr. Lungren. I appreciate your response, and I appreciate 
the delicacy of your position, the delicate nature of your 
position. It is difficult for us to be able to articulate to 
the general public when we are talking about a different 
formula. And I hope that people will begin to understand that 
one formula moves us in the direction of business as usual. The 
other one at least moves us a little closer to a rational risk-
based assessment strategy and funding, which I hope is where 
most people understand it.
    The problem is, we use the language of numbers and 
formulas, and it is difficult for people to understand that, so 
I appreciate your response.
    With respect to CDP and ICE, I don't know anybody who has 
articulated an analysis that having those two separate makes 
good sense, and yet through your plan of reorganization, you 
have removed the secretariat--I guess is what we call it--above 
that to which they would report, as well as TSA, so that CBP 
and ICE would report directly to you. I don't have a problem 
with that at all. It might mean you might have to testify here 
more often; I hope not, for your sake. Could you give us some 
of the thinking of why CBP and ICE should remain divergent? It 
seems from an analysis from a law enforcement standpoint, if no 
other, that separation is artificial and destructive.
    Secretary Chertoff. Well, we actually took a very close 
look at this, and I know the Inspector General was asked by the 
Senate Homeland Security Committee to consider the issue, and 
so I was at least privy to some of the factual findings that 
the Inspector General made when he considered this.
    Let me tell you what our thinking was. First of all, part 
of our proposed restructuring involves having a common 
Department-wide policy and planning shop and operation shop 
which gives us not only the ability to unify operations between 
CBP and ICE but across the department, including, for example, 
Coast Guard, which often intersects with them as we get into 
maritime areas and, therefore, should be part of the same 
coordination function. So I don't think our proposed 
elimination of BTS is a reduction in the degree of 
coordination. I think it is actually an expansion that gives us 
a greater sense of comprehensiveness across the Department.
    I spoke to a lot of folks about this merger, I spoke to 
people in the field. I spoke to representatives of labor 
organizations. And I spoke to people inside and outside the 
Department. And I wasn't convinced that the cure would really 
address the disease. It seems to me that you are dealing with 
functionally different issues when you are dealing with CPB, 
which deals principally with inspection and with Border Patrol 
agents, and on the other hand, you have your detention and 
removal folks and your investigators at ICE. And those are 
different functions. And from my own experience in law 
enforcement--and I know you have a similar experience--even if 
you put them in a single department, they would still be 
functionally separated within that particular component.
    So given the upside of a merger and considering the 
possible downside, including the huge cost that is involved any 
time you do a massive reorganization, I think it was our 
judgment that the case had not been made that a merger would 
cure the issues that have to be addressed. There is no question 
there are issues of coordination and finance that have to be 
addressed. And we are addressing them, but I think, at this 
point, I am confident that what we are doing will remedy the 
existing problems. And I think it is important finally to give 
people in these components a sense that their fate has been 
settled, that they can count on being in their positions going 
toward and that we can now go about the business of working 
together to achieve a common mission.
    Mr. Lungren. Thank you, Mr. Secretary.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from New Jersey, Mr. Pascrell, is recognized 
for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, I think we all join--this, I 
think, is going to be our last full meeting. Mr. Cox is going 
to go on to other things. He has done a good job in keeping us 
together, and we wish him well.
    Good luck to you.
    Chairman Cox. Thank you very much.
    Mr. Pascrell. I have two questions, one in the area of 
transit security and the other in the area of emergency 
preparedness. We know in the last 3 years, Mr. Secretary, there 
has been a tremendous gap between what we have expended on 
airline security, about $255 billion, and what we have 
expended--$12 billion, rather--and what we have expended in 
transit security, about $256 million. And dollars don't tell 
the whole story; I realize that. But our transit systems are 
vulnerable, if you listen to those folks who run them day and 
in day out.
    Now you said that there is $8.6 billion available for 
transit operations under the State Homeland Security and under 
the Urban Area Security Initiative Grant programs. Now while 
this money can be used for transit security, it is really 
intended for first responders if you look at how that dollar 
figure was arrived at and where it is supposed to be spent. 
Using these grants for rail security would mean first 
responders are shortchanged. What other funds will transit 
operators have to improve their security? And this is a 
question that existed before London and now after London, and 
we do not have a concise answer in this committee, Mr. 
Secretary.
    Secretary Chertoff. Let me try to give you a concise 
answer.
    As I said earlier, if you go back to the funding since 9/
11, we have had a total of $8.6 billion in State Homeland 
Security Grants and Urban Security Initiative Grants. And there 
is no question that anyone envisioned that all of that would be 
spent on rail security. I think every jurisdiction that gets 
money has to perform the same analysis we do. They have to set 
their priorities and their risks, and they have to build the 
use of the money around the particular architecture in their 
part of the country. In Seattle, for example, ferries are very 
important part to their mass transit, and to the extent that 
they want to use some of that money for ferries within the 
guidelines of the grant, they are free to do that. In the 
northeast, rail is very important. In other parts of the 
country, buses may be. So clearly, what we want to do is, 
again, we want to be risk-based, but we want to also tailor the 
particular circumstances to the particular part of the country. 
So I do think it is important to recognize that there has been 
a lot of money available for transit.
    I would also like to point out--
    Mr. Pascrell. Excuse me. There has been what?
    Secretary Chertoff. A lot of money available for transit.
    Mr. Pascrell. You do believe that?
    Secretary Chertoff. I do believe that.
    Mr. Pascrell. Even with the great disparity between what we 
have spent in the last 3 years on airline security, that is 
like 11 to 1--11 dollars to 1 penny?
    Secretary Chertoff. I have seen that comparison, I have to 
say--
    Mr. Pascrell. I think it is legitimate.
    Secretary Chertoff. I have to say I think it is a little 
bit of an apples and oranges comparison for the following 
reason: Most of the money we do--almost all of the money we do 
in aviation comes from the fact that we are the only boots on 
the ground in the system of aviation. The screeners in TSA are 
all Federal employees at this point. Obviously, the transit 
police, who are the boots on the ground in the various transit 
systems, are not Federal workers. They are State employees, or 
they are local employees. And I haven't yet encountered anybody 
who suggested that they wanted the Federal Government to take 
over the New Jersey transit authority or the New York City 
Police Department. So one difference is, of course, we are 
comparing a salary-based system with a system in which the 
salaries are paid by local authorities.
    But again, I want to come back to the fact that, although 
the targeted grants for rail have been $250 million or so, the 
pool of money that is available to jurisdictions that feel a 
need and think it is appropriate and can make the case for rail 
security is much broader. And it is that larger pot that I 
think includes the State Homeland Security Grants and the UIC 
grants.
    Mr. Pascrell. Mr. Secretary, I think that establishes a 
false competition. I would like you to really take a look at 
this. And I know words have been misrepresented, and I have 
total faith in you in this, and so let me go to the second 
point.
    I'm very concerned about this area. There is no 
representation on the policy level that I am aware of from the 
fire service within the office that administers Homeland 
Security Grant Funds, very concerned about that. The 
preparedness directorate may ensure that the United States is 
able to better prepare for a terrorist attack, but the 
structure you have advocated thus far may create harmful 
competition between the infrastructure protection, cyber 
security and first responder needs. I am very concerned about 
that, Mr. Secretary. For example, putting the assistant 
secretary for infrastructure protection in the same directorate 
as the U.S. Fire Academy may force firefighter needs to compete 
for attention with infrastructure risk assessments. There is no 
seat at the table, the policy table. And I am very concerned, 
and I hope you are going to respond to that. We are talking 
about policy making. Would you respond to that, please.
    Secretary Chertoff. Sure. When we went through this process 
of Second-Stage Review, one of the things we did do was talk to 
the first responder community. And actually, my perception was 
that, under the currently existing system, where the Fire 
Administration is in what is essentially FEMA and the Office of 
Domestic Preparedness for grant making is in a completely 
separate directorate, that actually led to some of the issues 
you are concerned about, the sense of the fire community that 
they were not adequately being considered in terms of the grant 
making. What our preparedness directorate will do is it will 
bring to the table all of these very critical functions which 
are part of preparedness effort, prevention, protection, and 
response and recovery. And I envision that first responder 
community will play a very important role both in populating 
the senior leadership of this directorate and also in setting 
policy.
    What I want to do is make sure that when we do preparedness 
policy making, everybody is at the table. I don't want to have 
a stepchild. I don't want the first responders to be a 
stepchild. I don't want the police to be a stepchild. I don't 
want the healthcare folks to be a stepchild. This is too 
important for us to let one group play off against the other. 
And I am confident that by bringing everybody together in one 
place, we can finally make sure that everybody's voice is heard 
when we cover the whole gambit of things from prevention to 
training to exercise and to giving money out.
    Mr. Pascrell. Thank you.
    Chairman Cox. The gentleman's time has expired.
    The gentleman from Louisiana, Mr. Jindal, is recognized for 
5 minutes.
    Mr. Jindal. Thank you, Mr. Chairman.
    I want to thank the Secretary for coming back as well.
    I submitted in writing questions on four different topics. 
I would like, for the sake of brevity, just to go through with 
you those four topics very quickly and get your response at 
least to the first couple of them. Certainly, I understand you 
may not have a chance to respond to each of these.
    The first regards the Regions Initiative. You yourself have 
indicated that the majority of the Department's employees are 
located outside of Washington. I am very interested in your 
thoughts on how best to coordinate and work with those 
employees. I personally am very interested in the Regions 
Initiative. I had the chance to visit a State Fusion Center 
over one of our breaks and was very impressed with having our 
coordination out at the local level.
    The second area I would like to bring your attention: I 
again want to commend you for the priority and the attention 
you are bringing to port security. Again, I had the chance to 
go and visit Port Fourchon, which is located in Louisiana, 
where 50 million tons of cargo are moved a year. It handles 
about 16 to 18 percent of our country's oil supply. And yet it 
hasn't made the list of our 66 highest-risk ports. I would be 
curious about what steps you all are taking to revise the 
assessment strategy. I know it is not near a population center, 
but certainly it is my thinking it is a very critical part of 
our Nation's infrastructure.
    Third, with the appointment of the chief medical officer, I 
would be curious how you view the structural changes, what 
impact that will have on first responders' ability to perform 
their duties after a catastrophic event.
    And finally, with the changes in FEMA, now specifically the 
changes between the preparedness and the response recovery 
functions, I would be curious on how you would ensure close 
coordination between those functions. Obviously, in my home 
State of Louisiana with hurricane season, we are very heavily 
impacted by natural disasters, and we are very, very dependent 
on the work of FEMA.
    Mr. Jindal. Again, I put a lot of issues on the table. I 
especially appreciate your comments on the region's initiative 
and port security. And thank you again for being here.
    Secretary Chertoff. I am going to try to cover as many of 
those as I can. Of course if I can't, we will respond in 
writing.
    With respect to regions, of course, we currently have among 
a number of the components a regional structure; and those 
regional structures, not surprisingly, vary a great deal 
depending on the mission of the component. For example, the 
Coast Guard really hasn't a need for very large regions in the 
interior of the country. FEMA regions tend to reflect some of 
the hazards that are peculiar to the geography of the country. 
And, of course, Customs and Border Protection really needs to 
be very focused along the border areas.
    It seemed to us when we looked at this issue that the idea 
of having a single set of DHS regions didn't make a lot of 
sense because the components quite naturally tailor their 
regions to their particular missions. But that is not to say 
that we don't need closer coordination with State and local 
officials. I have invited the Homeland Security advisers to 
come meet with me this coming month in August to talk about how 
we might network our fusion centers together.
    Part of the preparedness function is going to be figuring 
out how do we best link up our preparedness efforts with those 
of the individual jurisdictions that we have to deal with. Now, 
there are a number of different ways we may do that. We may 
have small regional offices, or officials, a few officials in 
some of the existing regional centers. We may have a system in 
which we have a predesignated principal Federal officer under 
our national response plan who is available in every State who 
works with the preparedness authorities. So what we are 
envisioning is a nimble and small-scale approach to this kind 
of coordination that focuses on network rather than a large 
kind of bureaucratic layer that will be between the individual 
State officials and the top management in Washington.
    As it relates to ports, I can't tell you that off the top 
of my head I know why a particular port was in the list or not. 
I can tell you that I sat down with the people applying the 
analytical approach to this, and they looked at a whole lot of 
things involving the flow-through of cargo, the nature of the 
cargo, the location relative to a particular center. And I 
recognize the fact that 60 or 70 ports are on the list means 
probably 300 are not on the list. And I think I have to be 
blunt in saying that is one of the consequences of a risk-
approached theory. If we dribble out the money in little 
packets to 360 ports, it is going to be useless. We have got to 
focus the money in the first instance on those ports where, 
again, consequence, vulnerability, and threat lead us to be the 
most worried. It doesn't mean we don't work with partners 
across the board. It doesn't mean that other funds aren't 
available.
    I mean, part of what the President's budget envisioned in 
the targeted infrastructure protection program were additional 
funds that might be used, might be tailored to particular needs 
and particular jurisdictions. But at the end of the day, as in 
many areas of government including many areas of national 
defense, we have to make some tough choices, and those have to 
be driven by a transparent and analytically sound system.
    Maybe I could just touch briefly on the chief medical 
officer. The idea with the chief medical officer is precisely 
to give us somebody who owns the entirety of this system of 
response with respect to health issues. That would be 
prevention, protection, and response and recovery. Because in 
many cases, particularly dealing with biological threats, 
response and recovery is a very, very important element of our 
defense strategy. Give that ownership to one person or one set 
of people. And the particular individual who I think the 
President has announced his intent to nominate is someone who 
actually has a background as an emergency room physician. So he 
is going to be someone who is acutely aware of the interface 
between first responders and the health recovery system in an 
emergency type of environment. And I think that reflects the 
kind of vision we have for this chief medical officer. It is 
someone who is going to apply the science of medicine and other 
scientific disciplines to the reality of dealing with a threat 
or a hazard in an emergency type of situation.
    Mr. Jindal. Thank you, Mr. Secretary. And I will follow up 
with your staff on some of those other questions. Thank you.
    Chairman Cox. The gentleman's time has expired. The Chair 
recognizes the gentleman from North Carolina, Mr. Etheridge, 
for 5 minutes of questions.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Thank you. Sorry I was a few 
minutes late. The airlines weren't working on schedule today, 
but the FSA was doing their job. Weather kept us delayed.
    Mr. Secretary, your predecessor came before this committee 
and I raised the issue with him about school safety and safety 
in schools across this country, public schools, K-12, et 
cetera. And the response was, that is a local issue. We have 
seen since then, what happened in Russia, that someone can use 
that as leverage and we wind up with a horrible situation.
    In your review, did you look at that as a policy issue, and 
do you want to--I hope you will comment on school safety and 
security today, because I think this is a big issue, and we 
have seen in the last few weeks soft targets tend to be those 
targets of choice now for terrorists.
    Secretary Chertoff. Well, I agree that schools are part of 
the general issue with soft targets. And what we do is we work 
with, again, our State and local partners by providing them 
with the kind of intelligence--and I don't just mean threats 
that come across on a day-by-day basis, but more comprehensive 
looks at the kinds of threats that are out there, types of 
weapons, types of techniques, lessons we have learned from past 
experiences, including from incidents like Beslan; the idea 
being to prepare State and local officials for the kind of 
challenges that they might face, and to give them some advice 
and counsel with respect to how they ought to take steps to 
protect schools. We have done that, in fact, in the private 
sector as well with respect to institutions that represent 
private institutions.
    I think it is part of a more general challenge. We don't 
own most of the infrastructure, we don't own the shopping 
centers and the stores. We have got to work with the people who 
do and give them the tools they need to take care of their 
responsibilities.
    Mr. Etheridge. So your answer is, yes, you are going to 
work with them; and, yes, you will provide information; and, 
yes, this is a soft target that we need to pay attention to it 
at the Federal level?
    Secretary Chertoff. Absolutely. We will work with them, we 
will provide information. We do pay attention to them at the 
Federal level.
    Mr. Etheridge. Thank you, sir. Let me ask on a related 
issue to that very same one. The Department had made an attempt 
to educate the public in the case of disasters through a 
program called the Ready Campaign and Citizen Corps. These 
programs, as you well know, contain pertinent information that 
citizens of our country need to be able to make effective 
decisions to prepare for response to terrorist attacks, whether 
they be man-made or, for that matter, it could be a natural 
disaster, the same thing. In your review of the Department, you 
made no mention of the efforts to prepare the public; it was 
more of a structural piece. My question is, did the Department 
analyze the effectiveness of the programs such as the Ready 
Campaign and Citizens Corps, and what is the comment on that?
    Secretary Chertoff. We did look at that. In fact, part of 
the impetus for creating a preparedness directorate was again 
to create accountability in a single component for the whole 
range of preparedness things and preparedness challenges. And 
one of the things I said when I was out, I think in California 
a few weeks ago, I was visiting in Los Angeles, was that when 
September comes, we have National Preparedness Month; we are 
going to be really pushing on the issue of preparedness 
precisely because this is where every individual has to be 
engaged in the process of taking reasonable and prudent steps 
to prepare for, as you say, either a natural disaster or even a 
terrorist attack.
    And I think the issue here is twofold. First of all, we 
have to give people good information. But we also have to 
motivate people. And one of the challenges we face and 
something that I have spoken about publicly, and I expect I 
will speak about more in September is, how do we enlist our 
communities and our civic agencies to get out there and get 
people motivated to do what they have to do in order to do the 
kind of reasonable planning and preparedness that people who 
live in a hurricane area do or people who live in a tornado 
area do? Because all of us, I think, owe it to ourselves and 
our families to take those reasonable steps.
    Mr. Etheridge. Mr. Secretary, let me encourage you, because 
as you look at these things, I think the schools--because that 
is an area that I think would grab the country in a hurry. And 
throughout our history we have used helping educate through a 
number of disaster drills; after World War II with the nuclear 
issue, we went through that. You are in a unique position to 
help provide information so the States and localities can deal 
with--because everyone's budget is strapped, especially those. 
At a time when we are funding at the Federal level, we really 
ought to use that opportunity. It would be a great educational 
tool, I think, if you would meet, work with the Health 
Department, Department of Education, and filter that down to 
the local units. I think we would get a real bang for our buck 
and do a tremendous job across this country. So I would 
encourage you to take a look at that.
    Secretary Chertoff. I agree with you. And when I was in 
California, I went with Congresswoman Harman to a local 
elementary school, and we talked about how schools can be a 
very powerful engine for motivating people to do things. I know 
as a parent, children are little engines of information. And 
when they get the idea they want to have their parents do 
something, they are persuasive and they are relentless. So we 
want to harness some of that energy.
    Mr. Etheridge. Thank you, Mr. Secretary. I yield back.
    Chairman Cox. The gentleman's time has expired. The next 5 
minutes go to Mr. Dent, the gentleman from Pennsylvania, for 5 
minutes.
    Mr. Dent. Thanks, Mr. Chairman.
    Good afternoon, Mr. Secretary. To follow up on one of the 
questions of Mr. Jindal, when the Department was created a few 
years ago, as you know, $40 billion, 180,000 employee, 22,000 
legacy components. When the Department was created, though, 
there were plans, as I recall, to colocate as many of these 
component parts as possible to increase efficiency. What is the 
status of the Department's colocation efforts to put its 
employees, as many, in one place?
    Secretary Chertoff. Well, I can tell you we are not 
colocated. Obviously there are many components outside of 
Washington, which one would not envision would ever be 
colocated. But even in Washington, we are in various buildings 
and campuses. There is no question that at least a medium-term, 
if not a long-term challenge, is for us to settle on a final 
location for the Department. Where we are now is constrained by 
space, even though with some additional--as the Navy moves out 
of our current facility, we will have some additional spaces.
    We are looking at what a longer-term strategy is ultimately 
for moving the entire Department someplace. It has to be a 
campus that is sufficiently large to accommodate what our 
Washington needs are. And I think there is a strong argument 
that it ought not to be located in downtown Washington because 
of the desire to have some distance between ourselves and some 
other buildings. So it is an issue that we are examining, but 
it is not one which I can envision is going to wind up 
resulting in colocation within the next couple of years.
    Mr. Dent. Understood. In the short term, though, how would 
the second-stage review structural changes affect the locations 
of your entities now if you are not going to colocate?
    Secretary Chertoff. Well, one thing we did is we had a 
group that looked at the question of operation centers. And we 
discovered we had some number of operation centers in various 
buildings in Washington which to some extent were duplicative 
and probably didn't have themselves organized in the way that 
is optimal. So one of the proposals that has come out that we 
are studying is, as space gets freed up in the central campus 
up in the Nebraska Avenue complex, is to bring together in one 
place and reduce the number of operation centers so that we can 
have a number of the components use a common operational center 
to deal with all of our emergency operations. That would not 
only, I think, save money in duplication, but it would have the 
real virtue of bringing together all of the leadership of the 
Department in one place during a crisis. Which I can tell you 
from even my own experience in the last 5 months would be a 
very positive development.
    So we are looking forward to taking that as a short-term 
step as part of the process of integrating ourselves 
physically.
    Mr. Dent. And with respect to TSA, under your proposal, TSA 
will be reporting directly to you, as I understand it. How will 
your proposal strengthen TSA? If you could just answer that 
question.
    Secretary Chertoff. Well, I think that the proposal to 
strengthen TSA has several dimensions. First of all, by having 
a common policy and operations function across the Department, 
we will have a greater ability to make sure that what TSA does 
is integrated with what CBP does, Customs and Border 
Protection, what ICE does. In many ways, TSA, Coast Guard, and 
the other components all have hands in the same set of issues. 
And when you have multiple hands in the same set of issues, you 
want to make sure every hand knows what the other hand is 
doing. So one of the principal strengths of our proposal is 
that it gives us a mechanism to monitor and guide all of these 
different components when they operate in a common area.
    I think second, though, we are looking for some perhaps 
out-of-the-box thinking in term of how we deal with TSA. We 
have a new administrator who was just confirmed last week whose 
background lies in the area of some modern business practices 
with supply-chain activity both in the railroads and I think in 
other areas as well.
    The idea is to make sure that TSA is not focused mainly on 
aviation, although aviation is important, but to make sure that 
we are also applying attention to rail transportation, land 
transportation, other kinds of transit activities, to get some 
of the strategic thinking in those areas that may not have put 
in.
    So I think by raising the visibility, by flattening the 
organization, by increasing the coordination, and by putting 
good leadership in, we are going to be able to make TSA a much 
more effective Transportation Security Agency.
    Mr. Dent. So I guess you have answered my next question 
which I was going to ask you about air passenger screening, and 
if you intended to make that--or continue to keep that as the 
primary activity of TSA. But it sounds to me, based on your 
answer, that that will not be the case.
    Secretary Chertoff. Well, passenger screening is clearly 
going to be an important activity. The question is, how do we 
configure that for the next few years? And I think there are 
two elements to that. One is in terms of equipment. We want to 
work to deploy and bring on line next-generation equipment as 
quickly as possible, something that is going to do the job more 
efficiently and is going to enable us to therefore do a better 
job of screening than we can do with existing technology.
    Second, we have to screen for names. And currently our 
system is maybe the most primitive system possible. We get a 
name, we match it up against a name in the watch list. And as I 
think any air traveler knows, we get a lot of false positives. 
Again, what we need to do is move to the next generation, 
finding additional types of information that we could rely upon 
to narrow the number of false positives. That would actually 
promote passenger privacy by reducing the number of times a 
person is questioned; things we might do in terms of biometrics 
and trusted traveler programs that would allow people to bypass 
certainly kinds of screening. I think these are all efforts to 
reduce the inconvenience of screening and make it more precise 
and make it therefore more secure.
    And part of my vision for TSA is to move all of these 
functions into the next generation, if you will.
    Mr. Dent. Thank you, Mr. Secretary.
    Chairman Cox. The gentleman's time has expired. The 
gentlelady from the District of Columbia, Ms. Holmes Norton, is 
recognized for 5 minute.
    Ms. Norton. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for the thought that has gone into your plan.
    Two questions. One, in light of that plan on the Federal 
Protective Service, along with the Ranking Member of 
Transportation Committee, I wrote you on June 14 concerning the 
placement of the Federal Protective Service and ICE in 
particular. Some of us have spent a great deal of time 
upgrading the FPS and improving it and reforming it. And I 
supported its transfer to your Department. The problem is we 
can centralize ourselves into less security if we don't watch 
out.
    The Federal Protective Service, for no fault of yours or 
theirs, does not fit into the major functions of your 
Department: immigration, customs, transportation. You know, its 
purpose is to protect almost 2 million Federal workers, highly 
vulnerable people, across the United States. And unless there 
have been changes, you wisely kept the regional offices and the 
command structure. It would appear, however, that its alignment 
in ICE is apples, oranges, and maybe some other fruit.
    I am wondering whether it wouldn't make better sense for 
Federal Protective Service to be under the Deputy Secretary, 
similar to the Office of Security, so they could provide the 
public and Federal employees with the ability to be deployed 
nationally as needed, period, and is, after all, a police 
force.
    Secondly, I have got to ask you more about transportation, 
public transportation. Mr. Secretary, in your plan there are 
six imperatives. The third imperative says the Department will 
launch specific policy initiatives. And the third one is to 
harden transportation security without sacrificing mobility. 
You know, it didn't say to allow the States to do that. It 
didn't say to allow you to do it in the States if you choose to 
do it.
    Let me tell you why many of us think that the Department 
and the administration have been particularly almost offended 
by the stepchild status of public transportation where there 
are 9 billion--90 billion passenger trips annually. No plan; 
yet the plan was due April 5. After London, no plan. After 
Madrid, no plan.
    Maybe no money, but no plan is a bit much. Your comments 
here about $8.6 billion is enough to send jurisdictions up the 
wall, because you are referring to, of course, first responder 
funding, not to dedicated funding.
    And that is what my question goes to. You spoke about 30 
versus 3,000--I know you will not make that kind of statement 
again--riders of metro, the New York transportation system. 
Understand, you are talking to the committee, unlike the Senate 
committee, which embraces and agrees wholeheartedly with your 
threat vulnerability consequences.
    My question is this: Particularly given, you know, 
imperative No. 3, is it not appropriate after London to look 
closely to see whether, given threat vulnerability and 
consequences, whether it is appropriate to have zero dedicated 
funding for public transportation, what the President's budget 
in fact recommended? Whether under that standard there are not 
circumstances where targeted funding would be appropriate? And 
whether, for example, it was appropriate for the Senate to cut 
$50 million from the lousy $150 million that the House put in 
in dedicated funding? I would like to have your answers to both 
of those questions.
    Secretary Chertoff. Let me deal with the Federal Protective 
Service first. Obviously, they perform a very important 
function. Among other things, they protect me and others in my 
Department. They protect government workers all over. We 
actually looked at this question, and again as with a number of 
the issues we dealt with, sometimes it is a close call. We 
considered whether there was another component with which FPS 
might fit more neatly. I think part of the consideration of 
putting FPS in ICE was that FPS does have a law enforcement or 
police function, and ICE is a law enforcement organization, 
really, the only--it and CBP are the only two law enforcement 
organizations. Coast Guard obviously has law enforcement 
authorities, but it--
    Ms. Norton. We don't want them to get mixed up with who 
they are supposed to protect, Mr. Secretary. So at the borders, 
it is protect 2 million people who work in Federal agencies.
    Secretary Chertoff. So the question was, given the absence 
of another component that was more likely, should we make it a 
direct report? And there I have to say, frankly, you know, 
there is a limited number of direct reports I think you can 
fairly have as an organization. Congress has mandated a number 
of direct reports which, of course, we have honored and gone 
forward with our plan, so that I guess it was our judgment that 
particularly because we were going to move FAMS out of ICE and 
back into TSA, that would enable the leadership of ICE to focus 
a little bit more on FPS, which I have to say I think is 
working quite well and is doing a very good job.
    And, again, I guess the burden of proof always being on 
those who suggest a change, my view at the end of the day was 
that no one had carried that burden. That particularly with the 
movement of FAMs, FPS was probably best situated where it is 
now. And, again, I understand the concern, but I think a direct 
report would probably not have been helpful.
    Let me turn to the issue of public transportation. And I 
appreciate, again, the opportunity to address what was an 
unhappy misquotation or partial quotation of what I said to a 
newspaper. I have been very consistent about this position. We 
have a responsibility for transportation, for infrastructure 
across the board. It is a responsibility we exercise in 
partnership with State and local government and sometimes with 
the private sector. It is a responsibility that we exercise 
with due regard to the nature of the architecture of the system 
with which we are dealing. We want to work with the system, we 
don't want to break the system that we are trying to protect. 
So when we deal with the issue of transit, we deal with an open 
system, one which, as I have said, has the boots on the ground, 
are essentially really local boots or State boots. We have our 
transit police who are local employees, and, more importantly, 
have the kind of local tailored knowledge about what measures 
are appropriate in the subway that we can't have as the Federal 
Government.
    And I have ridden a lot of subways in my time, and the New 
York subway is different than the Washington Metro, and they 
are both different than the London--
    Ms. Norton. We are talking about dedicated funding, we are 
not asking you to fund the transit police. We are talking about 
whether this function of the American people deserves any 
dedicated function from the United States of America or whether 
it should be left entirely to local jurisdictions to rip off 
some of their first responder money.
    Secretary Chertoff. I don't think it should be left to 
local jurisdictions, but I do think that, first of all, if you 
look at the President's budget which called for $600 million in 
targeted infrastructure protection money, that would have 
included rail and ports and some other infrastructure 
protection, and was an increase of almost $250 million over 
that number of programs from the prior year. So the budget had 
a substantial amount of money which was available for rail 
among other infrastructure.
    But the fundamental problem with targeting is this: There 
was a bombing in a hotel in Egypt that had a very dramatic loss 
of life. Should we target that? If there is a target, if there 
is a bombing in a ferry, should we target that? At the end of 
the day, to have a series of programs in which we target very 
specific amounts of money for pieces of infrastructure is to 
engage in a kind of back-and-forth with the terrorists that we 
cannot possibly win, because they are going to change their 
tactics and we are going to constantly be reacting to the last 
attack.
    What we need to do is to stand back and in fact create more 
ability to use informed and disciplined discretion to apply our 
resources in a way that anticipates not only the past attack 
but the next attack. It doesn't mean we are not responsible for 
this. It means that we have to work with our partners, and we 
have to work with all of them, not just the transit partners, 
but the people who deal with the hotels and the shopping 
centers and the buses and the ferries and everything else which 
has been attacked in the past or which might be attacked in the 
future.
    And even within these systems, I think in fairness we ought 
to note we spend a lot of money, for example, on detection 
equipment for chemical and biological agents. We put a lot of 
that in the subway systems. We do it because we know that a 
chemical or biological attack in a subway would have a profound 
effect, a terrible effect on not only on the people who would 
directly suffer the attack but the viability of the entire 
system. I mean, a bioattack on a system could put it out of 
action for weeks and months, not just for a matter of hours.
    So I think that although I deeply understand the impulse to 
react to the attacks and I have ridden a lot of subways in my 
time and I have a lot of friends and families who ride subways, 
I think it is important that we create a funding system that is 
nimble enough to respond not only to what the terrorist did 
yesterday or 2 weeks ago, or in Egypt with hotels, but to what 
they might be planning to do in the future.
    Chairman Cox. The gentleman's time has expired. The 
gentleman from Connecticut, Mr. Simmons, is recognized for 5 
minutes.
    Mr. Simmons. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for taking on what I believe is probably one of the 
hardest jobs in government today, which is not just trying to 
secure the homeland from an infinite number of potential 
threats, but organizing a new agency to accomplish that task. 
And I would say that your willingness to serve in this capacity 
is a good deed. And I would also say that no good deed goes 
unpunished, which is my philosophy of public life. So I thank 
you, and I wish you all the best.
    I would say that the members of this committee also have a 
hard job. Our responsibility is to oversee and authorize the 
activities of this new agency which has an awesome 
responsibility. When we are successful, it is business as 
usual. When we fail, then we have to stand in front of the 
microphones, as they are in Great Britain this past few weeks, 
and explain what went wrong.
    I have been honored to serve as the Chairman of the 
Intelligence and Information Sharing Subcommittee; and with a 
background in military intelligence, and a period of time with 
the Central Intelligence Agency, I would say that information 
sharing goes completely against the culture of the intelligence 
community. I go out and get myself a nice juicy secret, I am 
not about to share it with you or anybody else; I want to run 
it up the flag pole to my boss and get a kudo. So the whole 
idea of information sharing involves a cultural change in our 
intelligence community and a challenge to your chief 
intelligence officer, your new CIO, who, according to the line 
and block chart, is an assistant secretary.
    And my first question to you is, do you feel that a CIO at 
an assistant secretary level is going to have the juice, have 
the power, to get the sharing that we need from the 
intelligence community? Sharing from DHS down and around, I 
don't consider that much of a problem. But getting access to 
the really good stuff in the first place is where I think the 
problem lies, because each component of the intelligence 
community that is protecting sensitive sources and methods is 
concerned about what they share with your people, especially if 
your people are going to pass it on to State, local, and tribal 
entities. So does this CIO have the juice to do the job?
    And then, secondly, your new nominee for assistant 
secretary, Mr. Baker, has been very involved in the classified 
side and in doing recommendations for reform of the 
intelligence community. And I believe he was involved in the 
weapons of mass destruction report of the Robb report, which 
recommended an open source agency located at CIA. Why is the 
open source agency, the open source intelligence agency at CIA? 
Why isn't it at DHS? Doesn't DHS lend itself to the open source 
acquisition and analysis? Doesn't this reduce our fears that 
somehow your agency is going to be invading the privacy and 
violating the civil liberties of our people, and you can simply 
say, look, we are getting 90 percent of our stuff from open 
sources? Why isn't it a natural for your organization?
    Secretary Chertoff. Let me see if I can address all those 
questions. I am, I guess, acutely aware of the cultural 
problems that are involved in information sharing, and in my 
prior life when I was head of the criminal division at the 
Department of Justice, I saw it from that angle as well.
    I guess I begin by saying I think that the culture is not 
completely changed but it is changing. And I think every time 
there is an event like what happened in London or in Egypt, it 
reminds everybody that no one wants to be answering questions 
about why they didn't connect dots because they didn't share 
the dots with other people. I think the creation of the DNI and 
the appointment of Ambassador Negroponte is a very significant 
step forward in building that community-wide sense of sharing.
    From our sharepoint, our chief intelligence officer I think 
is going to have a couple of powerful tools in dealing with the 
rest of the community. First of all, that person will be able 
to speak for all of the intelligence components within DHS. 
And, second, that person is going to be able to bring to the 
table something that I don't think we have fully brought to the 
table, which is our own intelligence collection capability. 
There is a tremendous amount of information that we encounter 
at the border or on airplanes or in the course of our human 
trafficking investigations by ICE, which is of great not only 
tactical value but of strategic value. And we have really begun 
this process and we have been doing it for the last 3 months.
    As we pull this up and we fuse it in a strategic way, and 
we go to the other members of the intelligence community and we 
say, look, here is what we bring to the table, that is the kind 
of contribution that in my experience gets a very positive 
result.
    And I can tell you from my own observations, even in the 
absence of a formally designated CIO, we have been working very 
hard and we have seen some positive results in terms of our 
collaborative work with other members of the community based on 
what we bring to the table, not coming as a charity case 
begging for information, but coming as a major contributor with 
a tremendous amount of positive intelligence information that 
we contribute to the mix.
    So I think that gives me a lot of hope that as we 
institutionalize this going forward, it is going to get better.
    With respect to the recommendation about open source 
information, we do, of course, rely on a lot of open source 
information. As a matter of fact, I think everybody does. The 
current structure of the community, of course, has been set not 
only by the Homeland Security Act, but by the subsequent 
Intelligence Reform Act, and of course the Weapons of Mass 
Destruction Commission added some additional suggestions.
    I guess I would say that to the extent that intelligence 
covers even things that are more than Homeland Security, that 
involve classic defense like weapons of mass destruction, 
missiles, and things of that sort, it is a very broad set of 
issues.
    And I can't quarrel with the suggestion that the open 
source -- that an open source component be placed in the CIA. I 
think what is critically important is the sharing function. And 
I am convinced that Ambassador Negroponte and Director Goss and 
Director Mueller and everybody else involved in this process 
has understood the President's very clear marching orders that 
this is to be an integrated and unified effort, and one in 
which we are exchanging information and not hoarding it.
    Mr. Simmons. I thank you. And I thank you, Mr. Chairman.
    Chairman Cox. I thank the gentleman. The gentleman's time 
has expired.
    The Chair would thank all Members for their patience and 
demonstrated interest, no one more so than the gentlelady from 
California, Ms. Lofgren.
    I simply want to take the opportunity just now since, under 
our UC Ms. Lofgren will be the last questioner, to thank 
Members, some of whom under the UC were unable to ask questions 
at all at this second session because they asked their 
questions at the first session. I think the demonstrated 
interest of Members, Mr. Secretary, in your testimony is 
evident. These are very, very important topics, and, again, we 
are very pleased that you could be here twice.
    Having said that, the gentlelady from California, who has 
waited patiently throughout both the first and second sessions, 
is recognized for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for returning. It is really 
quite wonderful that you have, and to give us an opportunity to 
be a partner with you in the reforming of this Department.
    I have a lot of questions, and there is no time to ask them 
all. But I would like to focus in on the immigration function. 
I noticed in your testimony a proposal--and I agree with it--to 
do the security screening first because it makes a lot of 
sense. You won't necessarily have to screen everybody, do all 
the extra work if you do the screening at the front.
    But I am wondering what your thoughts are in terms of 
rationalizing the entire system. I mean, for example, they do 
digital fingerprints for applicants for a permanent visa that 
expire. And I don't quarrel with the need to run the prints 
through the FBI data sheet on a frequent basis, but they are 
digital for a reason, so you can keep them. And they are not 
stored.
    And, I mean, that is just one of many examples where they 
create work, and then people call in and it gets--I will bet 
you a third of their time is spent just dealing with inquiries 
that could be handled if they actually had a system that made 
sense.
    What is your plan to actually make that--to use technology 
and to streamline procedures so that that works in an efficient 
manner?
    Secretary Chertoff. I think you are exactly correct. We 
have to always look at these things as system issues. And I 
don't want to underestimate the challenge here, because you are 
dealing with an agency which has significantly reduced what was 
an enormous backlog, which has millions and millions of people 
that it has to deal with. And I sometimes used the analogy in 
the past about the Department--by building an airplane while 
you are flying it--in many ways, on maybe a somewhat smaller 
scale, of a challenge here.
    I do think that we ought to look at issues like why do we 
not save things that we ought to save that would reduce work, 
particularly because digital information can be stored? I think 
at a broader level and a higher level, we need to look at how 
do we reconfigure the system so that we compress the time 
between application and adjudication and give people the 
incentive up front to collect their paperwork and get the 
screening done up front as opposed to when people are here 
temporarily waiting for adjudication.
    So I think this is all of the piece with refashioning USCIS 
and making it into a 21st century organization. I think, 
frankly, it is going to be expensive, it will require making 
sure that our information technology system is capable of 
bearing the burden we will place on it. I think ultimately, if 
we make this transformation, we will have a system that will be 
much more efficient and much less expensive, but we need to 
think through how we make that transition.
    Ms. Lofgren. Let me in a related question -- you have 
mentioned in your statements, and I agree, that we need to 
secure our borders and be able to have integrity to that 
system. And not just our land borders, but people coming in at 
other points of entry. And I think we all agree on that. But 
that also we need to make sure that those people who we want to 
get in, in fact do get in. And there was discussion when the 
Department was formed of putting the consular function within 
the Department of Homeland Security. Ultimately that did not 
occur. And there was a plan to have the immigration function 
out-stationed at these offices. I don't think that has actually 
occurred.
    And there is a problem. We know this. I mean, there are 
scientists who can't get into international conferences. We 
have had a dramatic drop-off on really the top science students 
in the world who are now going to Australia and Britain instead 
of MIT and Stanford. And we also have a real problem with 
getting people back and forth from multinational companies. In 
fact, I had a fellow tell me that they had to close their 
California office and move it to Vancouver because they 
couldn't get their engineers from other countries into the 
United States. So we need to solve that.
    What is your strategy for getting the consular function on 
board and integrated technologically in terms of information 
and decision-making so that the scientists and engineers and 
multinational folks and students can actually come and enrich 
our society?
    Secretary Chertoff. I have been talking to Secretary Rice 
about a number of initiatives in this area, recognizing we have 
a whole host of problems. Some of them have to do with the 
advisory opinion system which relates to certain types of 
people who want to come in, which I think in many cases is a 
legacy of a preexisting year and which needs to be 
substantially retooled. Some of it involves, again, networking 
and making sure that our technology is linked up in a way that 
is compatible so that when someone is cleared in one system 
they are cleared in another system. Another may involve 
lengthening visas or lengthening the time period in which 
people can come back and forth. And part of it I think is also 
sending the message out that we really are welcoming, that we 
are not a society that is seeking to deter visitors and people 
who want to come to be productive or to study, but that is 
seeking to in fact welcome them to do that.
    I am hopeful in the next couple of months as we are working 
on these issues, we are going to have a series of initiatives 
that we can present that will take some substantial steps 
forward in helping us attract the kinds of people that make us 
a stronger country and also go back and become goodwill 
emissaries for our own country abroad.
    Ms. Lofgren. Well, I see my time has expired. I look 
forward to working on those initiatives with you, Mr. 
Secretary. And thank you once again for revisiting us.
    Secretary Chertoff. I do, too. And, Mr. Chairman, if I may 
just say, if all goes well with you, I anticipate this may be 
my last appearance before you as a witness. So I wish you the 
best of luck. It has been an enormous pleasure testifying 
before you, and I look forward to working with you in your 
future capacity.
    Chairman Cox. Thank you very much, Mr. Secretary. Your 
testimony today was exceptionally valuable. Your kind words are 
especially welcomed. You and I have been friends for a long 
time. I look forward to continuing to work with you.
    As I mentioned at the end of last week's hearing, the 
Members of the Committee may have some additional questions, 
and I will ask that you respond to these in writing. The 
hearing record will be held open for 10 days.
    The gentleman from New Jersey is recognized for 30 seconds.
    Mr. Pascrell. Chairman and Mr. Secretary, a note of 
caution. I have a great deal of respect for my friend, the 
gentleman from North Carolina, probably one of the foremost 
educators that ever has served in this Congress. But I must say 
there is a tremendous amount of research on, quote-unquote, 
preparing kids. We had better be very careful about 
traumatizing our children in preparing them, in getting them in 
over their heads. I am very concerned about this.
    So how we do that and still prepare the country in 
defending our children and our grandchildren is not easy, it is 
not an easy task. But we don't want to traumatize those kids. 
They are being hit through the mass media tremendously, and we 
don't know what is affecting--we don't know, really, what 
effect it is having on them. And to throw them into the mix 
here as if, you know--and I am not--using this as a criticism--
but to prepare them as we would prepare adults are two 
different things. So a note of caution, sir.
    Secretary Chertoff. I agree with you. I understand this is 
something to proceed with caution, and I think it is something 
that we would only do in consultation with people who really 
know the kids, the people who educate them. I think that is 
very important, to make sure that we don't--again, we don't 
compromise our way of life as we go about making ourselves more 
secure.
    Mr. Pascrell. Thank you. Thank you, Mr. Chairman.
    Chairman Cox. The gentleman's time has expired. The Chair 
recognizes the Ranking Member for a concluding comment.
    Mr. Thompson. Thank you very much, Mr. Chairman. And as has 
already been said, this perhaps is your last meeting of the 
full committee. And I would like to just say, on behalf of the 
Democrats on the committee, you have been a very positive force 
for the committee. You have shared your leadership in a manner 
that I wish a number of other committees could benefit from.
    Your new post, I am certain the President made a very wise 
choice in you. The committee's loss, obviously, is your next 
gain as far as we are concerned. So on behalf of all of us 
here, we wish you well.
    Chairman Cox. Thank you very much. I very much appreciate 
the opportunity to work with you. We may have an opportunity 
for a brief business meeting on Friday, so you may regret that 
you have taken--
    Mr. Thompson. I take it all back.
    Chairman Cox. But if that does not happen, if we don't have 
that opportunity, let me say at this juncture how much I have 
appreciated the opportunity not just this year, but over 3 
years, to work on homeland security matters with so many of 
you, because there is a great deal of carryover from the Select 
Committee on this Committee and with the new members this year.
    Mr. Secretary, as you know, because this is also a new 
undertaking for you, there is no more vital and important 
discipline for our country. Homeland Security is new. It knits 
together a lot of established disciplines. But, really, there 
have been no homeland security experts per se, experts in all 
of these things ranging from immigration to nonproliferation to 
chemical, biological, nuclear weapons, to all of the terrorist 
finance questions that we have had to think of, all of the 
knitting together of FBI and law enforcement, State and local, 
with intelligence and so on. The only true generalists, the 
only true generalists in Homeland Security are Tom Ridge, 
Michael Chertoff, and the rest of us who have been working on 
this for just the last few years.
    So it is with great regret, having learned so much of it, 
that I now perhaps turn to other things. But I have had an 
extraordinary opportunity to work with each of you. I am glad 
that this Committee is bipartisan and has been that for 3 
years, and I know that under the leadership of a new chairman 
it will remain that. It is vital that it remain bipartisan, 
because it is about the security of our country. As my 
colleague from California, Ms. Harman, is so fond of saying, 
the terrorists do not care if we are Democrats or Republicans. 
And we need to work together to stop them.
    So thank you very much for giving me this opportunity. And 
I look forward to continuing to work with each of you. Without 
objection, the Committee stands adjourned.
    [Whereupon, at 5:50 p.m., the committee was adjourned.]
    


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                               <all>

</pre></body></html>
